APPENDIX

TABLE OF CONTENTS
Appendix A:

Court of appeals opinion,
June 30, 2020 ....................................... 1a

Appendix B:

District court summary judgment
opinion, March 21, 2019 ................... 49a

Appendix C:

District court summary judgment
order, March 21, 2019 ...................... 77a

1a
APPENDIX A
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
____________
No. 19-1842
____________
B.L., a minor, by and through
her father, LAWRENCE LEVY and
her mother BETTY LOU LEVY
v.
MAHANOY AREA SCHOOL DISTRICT,
____________

Appellant
On Appeal from the United States District Court
for the Middle District of Pennsylvania
(M.D. Pa. No. 3:17-cv-01734)
Hon. A. Richard Caputo, United States District Judge
____________
Argued November 12, 2019
Before: AMBRO, KRAUSE, and BIBAS, Circuit Judges
(Filed: June 30, 2020)
Arleigh P. Helfer, III
Theresa E. Loscalzo

2a
Schnader Harrison Segal & Lewis
1600 Market Street
Suite 3600
Philadelphia, PA 19103
Mary Catherine Roper
American Civil Liberties Union of Pennsylvania
P.O. Box 60173
Philadelphia, PA 19102
Sara J. Rose
[Argued]
American Civil Liberties Union
P.O. Box 23058
Pittsburgh, PA 15222
Molly M. Tack-Hooper
American Civil Liberties Union of Washington Foundation
901 Fifth Avenue
Suite 630
Seattle, WA 19102
Counsel for Appellees
David W. Brown
Michael I. Levin
[Argued]
Levin Legal Group, P.C.
1800 Byberry Road
1301 Mason Mill Business Park
Huntingdon Valley, PA 19006
John G. Dean
Elliott Greenleaf & Dean
201 Penn Avenue

3a
Suite 202
Scranton, PA 18503
Counsel for Appellant
Francisco M. Negrón, Jr.
National School Boards Association
1680 Duke Street
Room 523
Alexandria, VA 22314
Counsel for Amici Curiae National School
Boards Association; Pennsylvania School
Boards Association; Delaware School Boards Association; New Jersey School Boards
Association; Pennsylvania Principals Association; National Association of Elementary School
Principals; National Association of Secondary
School Principals; and AASA, The School Superintendents Association
Sophia Cope
Electronic Frontier Foundation
815 Eddy Street
San Francisco, CA 94109
Counsel for Amici Curiae Electronic Frontier
Foundation, Student Press Law Center, Pennsylvania Center for the First Amendment, and
Brechner Center for Freedom of Information
Marieke T. Beck-Cook
Foundation for Individual Rights in Education
510 Walnut Street
Suite 1250
Philadelphia, PA 19106

4a
Counsel for Amicus Curiae Foundation for Individual Rights in Education
____________
OPINION OF THE COURT
____________
KRAUSE, Circuit Judge.
Public school students’ free speech rights have long
depended on a vital distinction: We “defer to the school[]”
when its “arm of authority does not reach beyond the
schoolhouse gate,” but when it reaches beyond that gate,
it “must answer to the same constitutional commands that
bind all other institutions of government.” Thomas v. Bd.
of Educ., 607 F.2d 1043, 1044–45 (2d Cir. 1979). The digital revolution, however, has complicated that distinction.
With new forms of communication have come new frontiers of regulation, where educators assert the power to
regulate online student speech made off school grounds,
after school hours, and without school resources.
This appeal takes us to one such frontier. Appellee
B.L. failed to make her high school’s varsity cheerleading
team and, over a weekend and away from school, posted a
picture of herself with the caption “fuck cheer” to Snapchat. J.A. 484. She was suspended from the junior varsity
team for a year and sued her school in federal court. The
District Court granted summary judgment in B.L.’s favor, ruling that the school had violated her First
Amendment rights. We agree and therefore will affirm.
I. BACKGROUND
B.L. is a student at Mahanoy Area High School
(MAHS). As a rising freshman, she tried out for cheerleading and made junior varsity. The next year, she was

5a
again placed on JV. To add insult to injury, an incoming
freshman made the varsity team.
B.L. was frustrated: She had not advanced in cheerleading, was unhappy with her position on a private
softball team, and was anxious about upcoming exams. So
one Saturday, while hanging out with a friend at a local
store, she decided to vent those frustrations. She took a
photo of herself and her friend with their middle fingers
raised and posted it to her Snapchat story.1 The snap was
visible to about 250 “friends,” many of whom were MAHS
students and some of whom were cheerleaders, and it was
accompanied by a puerile caption: “Fuck school fuck softball fuck cheer fuck everything.” J.A. 484. To that post,
B.L. added a second: “Love how me and [another student]
get told we need a year of jv before we make varsity but
that’s [sic] doesn’t matter to anyone else? 🙃.”2 J.A. 485.
One of B.L.’s teammates took a screenshot of her first
snap and sent it to one of MAHS’s two cheerleading
coaches. That coach brought the screenshot to the attention of her co-coach, who, it turned out, was already in the
know: “Several students, both cheerleaders and noncheerleaders,” had approached her, “visibly upset,” to
“express their concerns that [B.L.’s] [s]naps were inappropriate.” J.A. 7 (citations omitted).
The coaches decided B.L.’s snap violated team and
“Snapchat is a social media application for smartphones that allows
users to send private text, photo, and video messages to other users.”
J.A. 6. Snaps can be viewed only temporarily and “cannot be accessed from the web.” Id.

1

The “upside-down smiley face” emoji “indicate[s] silliness, sarcasm,
irony, passive aggression, or frustrated resignation.”
Upside-Down
Face Emoji, Dictionary.com, https://www.dictionary.com/e/emoji/upside-down-face-emoji (last visited June 25, 2020).

2

6a
school rules, which B.L. had acknowledged before joining
the team, requiring cheerleaders to “have respect for
[their] school, coaches, . . . [and] other cheerleaders”;
avoid “foul language and inappropriate gestures”; and refrain from sharing “negative information regarding
cheerleading, cheerleaders, or coaches . . . on the internet.” J.A. 439. They also felt B.L.’s snap violated a school
rule requiring student athletes to “conduct[] themselves
in such a way that the image of the Mahanoy School District would not be tarnished in any manner.” J.A. 486. So
the coaches removed B.L. from the JV team. B.L. and her
parents appealed that decision to the athletic director,
school principal, district superintendent, and school
board. But to no avail: Although school authorities
agreed B.L. could try out for the team again the next year,
they upheld the coaches’ decision for that year. Thus was
born this lawsuit.
B.L. sued the Mahanoy Area School District (School
District or District) in the United States District Court for
the Middle District of Pennsylvania. She advanced three
claims under 42 U.S.C. § 1983: that her suspension from
the team violated the First Amendment; that the school
and team rules she was said to have broken are overbroad
and viewpoint discriminatory; and that those rules are unconstitutionally vague.
The District Court granted summary judgment in
B.L.’s favor. It first ruled that B.L. had not waived her
speech rights by agreeing to the team’s rules and that her
suspension from the team implicated the First Amendment even though extracurricular participation is merely
a privilege. Turning to the merits, the Court ruled that
B.L.’s snap was off-campus speech and thus not subject to
regulation under Bethel School District No. 403 v. Fraser,

7a
478 U.S. 675 (1986). And, finding that B.L.’s snap had not
caused any actual or foreseeable substantial disruption of
the school environment, the Court ruled her snap was also
not subject to discipline under Tinker v. Des Moines Independent Community School District, 393 U.S. 503
(1969). The Court therefore concluded that the School
District had violated B.L.’s First Amendment rights, rendering unnecessary any consideration of her overbreadth,
viewpoint discrimination, or vagueness claims. It entered
judgment in B.L.’s favor, awarding nominal damages and
requiring the school to expunge her disciplinary record.
This appeal followed.
II.

DISCUSSION3

The First Amendment provides that “Congress shall
make no law . . . abridging the freedom of speech.” U.S.
Const. amend. I. Over time, those deceptively simple
words have spun off a complex doctrinal web. The briefs
here are a testament to that complexity, citing a wealth of
cases involving not only student speech but also public
employee speech, obscenity, indecency, and many other
doctrines.
At its heart, though, this appeal requires that we answer just two questions. The first is whether B.L.’s snap
was protected speech. If it was not, our inquiry is at an
end. But if it was, we must then decide whether B.L. validly waived that protection. Although navigating those
questions requires some stopovers along the way, we ultimately conclude that B.L.’s snap was protected and that
The District Court had jurisdiction under 28 U.S.C. §§ 1331 and
1343(a), and we have jurisdiction under 28 U.S.C. § 1291. We review
a grant of summary judgment de novo and apply the same standard
as the district court. J.S. ex rel. Snyder v. Blue Mountain Sch. Dist.,
650 F.3d 915, 925 (3d Cir. 2011) (en banc).

3

8a
she did not waive her right to post it.
A.

B.L.’s Speech Was Entitled to First
Amendment Protection

We must first determine what, if any, protection the
First Amendment affords B.L.’s snap. To do so, we begin
by canvassing the Supreme Court’s student speech cases.
Next, we turn to a threshold question on which B.L.’s
rights depend: whether her speech took place “on” or “off”
campus. Finally, having found that B.L.’s snap was offcampus speech, we assess the School District’s arguments
that it was entitled to punish B.L. for that speech under
Fraser, Tinker, and several other First Amendment doctrines.
1. Students’ broad free speech rights and the
on- versus off-campus distinction
For over three-quarters of a century, the Supreme
Court has recognized that although schools perform “important, delicate, and highly discretionary functions,”
there are “none that they may not perform within the limits of the Bill of Rights.” W. Va. State Bd. of Educ. v.
Barnette, 319 U.S. 624, 637 (1943). And the free speech
rights of minors are subject to “scrupulous protection,”
lest we “strangle the free mind at its source and teach
youth to discount important principles of our government
as mere platitudes.” Id.
In Tinker v. Des Moines Independent Community
School District, 393 U.S. 503 (1969), the Court reiterated
that students do not “shed their constitutional rights to
freedom of speech or expression at the schoolhouse gate.”
Id. at 506. Expanding on Barnette, Tinker also held that
student speech rights are “not confined to the supervised
and ordained discussion” of the classroom; instead, they

9a
extend to all aspects of “the process of attending school,”
whether “in the cafeteria, or on the playing field, or on the
campus during authorized hours.” Id. at 512–13. Without
“a specific showing of constitutionally valid reasons to
regulate their speech,” then, “students are entitled to
freedom of expression,” id. at 511, and cannot be punished
for “expressions of feelings with which [school officials] do
not wish to contend,” id. (quoting Burnside v. Byars, 363
F.2d 744, 749 (5th Cir. 1966)).
To these broad rights, Tinker added a narrow exception “in light of the special characteristics of the school
environment.” 393 U.S. at 506. Some forms of speech, the
Court recognized, can “interfere[] . . . with the rights of
other students to be secure and to be let alone.” Id. at 508.
So as part of their obligation “to prescribe and control
conduct in the schools,” id. at 507, school officials may regulate speech that “would ‘materially and substantially
interfere with the requirements of appropriate discipline
in the operation of the school,’” id. at 509 (quoting Burnside, 363 F.2d at 749). To exercise that regulatory power,
however, schools must identify “more than a mere desire
to avoid the discomfort and unpleasantness that always
accompany an unpopular viewpoint” and more than “undifferentiated fear or apprehension of disturbance.” Id.
at 508–09.
Tinker thus struck a balance, reaffirming students’
rights but recognizing a limited zone of heightened governmental authority. But that authority remains the
exception, not the rule. Where Tinker applies, a school
may prohibit student speech only by showing “a specific
and significant fear of disruption,” J.S. ex rel. Snyder v.
Blue Mountain Sch. Dist., 650 F.3d 915, 926 (3d Cir. 2011)
(en banc) (quoting Saxe v. State Coll. Area Sch. Dist., 240

10a
F.3d 200, 211 (3d Cir. 2001)), and where it does not, a
school seeking to regulate student speech “must answer
to the same constitutional commands that bind all other
institutions of government,” Thomas, 607 F.2d at 1045.
In each of three later cases, the Court identified a limited area in which schools have leeway to regulate student
speech without meeting Tinker’s substantial disruption
standard. In Bethel School District No. 403 v. Fraser, 478
U.S. 675 (1986), it held that to “inculcate the habits and
manners of civility,” schools may “prohibit the use of vulgar and offensive terms.” Id. at 681, 683 (citation
omitted). In Hazelwood School District v. Kuhlmeier, 484
U.S. 260 (1988), it held that officials may regulate student
speech in the context of “school-sponsored . . . expressive
activities that students, parents, and members of the public might reasonably perceive to bear the imprimatur of
the school,” provided “their actions are reasonably related
to legitimate pedagogical concerns.” Id. at 271–73. And
in Morse v. Frederick, 551 U.S. 393 (2007), given educators’ “important—indeed, perhaps compelling[—]
interest” in “deterring drug use by schoolchildren,” id. at
407 (internal quotation marks and citation omitted), the
Court held that schools may “restrict student expression
that they reasonably regard as promoting illegal drug
use,” id. at 408.
Although each of these cases added a wrinkle, none
disturbed the basic framework on which Tinker relied.
Fraser could not have been disciplined had he “delivered
the same speech in a public forum outside the school context.” Morse, 551 U.S. at 405. Kuhlmeier’s editorial
authority applies “only when a student’s school-sponsored
speech could reasonably be viewed as speech of the school
itself,” which “is not lightly to be presumed.” Saxe, 240

11a
F.3d at 213–14. And central to Morse was not only the
speech’s relationship to the school day—that it was made
“during school hours” and “at a school-sanctioned activity,” 551 U.S. at 400–01 (citation omitted)—but also that
juvenile drug use “cause[s] severe and permanent damage to the health and well-being of young people,” id. at
407.
The Court’s case law therefore reveals that a student’s
First Amendment rights are subject to narrow limitations
when speaking in the “school context” but “are coextensive with [those] of an adult” outside that context. J.S.,
650 F.3d at 932.
2. B.L.’s snap was “off-campus” speech
To define B.L.’s speech rights with precision, therefore, we must ask whether her snap was “on-” or “offcampus” speech—terms we use with caution, for the
schoolyard’s physical boundaries are not necessarily coextensive with the “school context,” J.S., 650 F.3d at 932.
After reviewing the line separating on- from off-campus
speech, we hold B.L.’s speech falls on the off-campus side.
It is “well established” that the boundary demarcating
schools’ heightened authority to regulate student speech
“is not constructed solely of the bricks and mortar surrounding the school yard.” Layshock ex rel. Layshock v.
Hermitage Sch. Dist., 650 F.3d 205, 216 (3d Cir. 2011) (en
banc). That is the only conclusion to be drawn from the
fact that the Supreme Court, in defining the scope of
schools’ authority, has consistently focused not on physical boundaries but on the extent to which schools control
or sponsor the forum or the speech. See Morse, 551 U.S.
at 400–01; Kuhlmeier, 484 U.S. at 270–71; Fraser, 478
U.S. at 677, 680. And that focus makes sense: Just as the
school context “is not confined to . . . the classroom,”

12a
Tinker, 393 U.S. at 512, neither can it be confined to the
school’s physical grounds because exclusive dependence
on “real property lines,” Layshock, 650 F.3d at 221 (Jordan, J., concurring), would exclude “part[s] of the process
of attending school” that occur beyond those lines, Tinker,
393 U.S. at 512.
Equally well established, however, is that “the ‘school
yard’ is not without boundaries and the reach of school authorities is not without limits.” Layshock, 650 F.3d at 216.
School officials, in other words, may not “reach into a
child’s home and control his/her actions there to the same
extent that it can control that child when he/she participates in school sponsored activities.” Id. Permitting such
expansive authority would twist Tinker’s limited accommodation of the “special characteristics of the school
environment,” 393 U.S. at 506, into a broad rule reducing
the free speech rights of all young people who happen to
be enrolled in public school.
The courts’ task, then, is to discern and enforce the
line separating “on-” from “off-campus” speech. That
task has been tricky from the beginning. See, e.g.,
Thomas, 607 F.2d at 1045–47, 1050–52 (declining to apply
Tinker to a student publication because, although a few
articles were written and stored at school, the publication
was largely “conceived, executed, and distributed outside
the school”). But the difficulty has only increased after
the digital revolution. Students use social media and
other forms of online communication with remarkable frequency. Sometimes the conversation online is a highminded one, with students “participating in issue- or
cause-focused groups, encouraging other people to take
action on issues they care about, and finding information
on protests or rallies.” Br. of Amici Curiae Electronic

13a
Frontier Foundation et al. 13. Other times, that conversation is mundane or plain silly. Either way, the
“omnipresence” of online communication poses challenges
for school administrators and courts alike. Layshock, 650
F.3d at 220–21 (Jordan, J., concurring); see J.S., 650 F.3d
at 940 (Smith, J., concurring).
Although the Supreme Court has not addressed the
on- and off-campus divide in the context of online speech,
it has laid down invaluable road markers that guide our
way. The Court first addressed the internet’s “vast democratic forums” in Reno v. ACLU, 521 U.S. 844, 868 (1997).
Reno recognized that the internet poses unique challenges but also offers unique advantages, “provid[ing]
relatively unlimited, low-cost capacity for communication
of all kinds” and content “as diverse as human thought,”
id. at 870 (citation omitted). In applying the First Amendment to this technology, the Court was careful not to
discard existing doctrines. Instead, it applied those doctrines faithfully, trusting that even faced with a “new
marketplace,” “[t]he interest in encouraging freedom of
expression in a democratic society outweighs any theoretical but unproven benefit of censorship.” Id. at 885. It
took a similar approach in Packingham v. North Carolina, 137 S. Ct. 1730 (2017), recognizing both the “vast
potential” and serious risks connected with the “revolution of historic proportions” wrought by new
communicative technologies. Id. at 1736. As in Reno, in
Packingham the Court met new technologies with settled
precedent, “exercis[ing] extreme caution before suggesting that the First Amendment provides scant protection
for access to vast networks” in “the modern public
square.” Id. at 1736–37.
The lesson from Reno and Packingham is that faced

14a
with new technologies, we must carefully adjust and apply—but not discard—our existing precedent. The thrust
of that lesson is not unique to the First Amendment context. But it may be of special importance there because
each new communicative technology provides an opportunity for “unprecedented” regulation. Packingham, 137
S. Ct. at 1737. And even when it is unclear whether the
government will seize upon such an opportunity, the lack
of clarity itself has a harmful “chilling effect on free
speech.” Reno, 521 U.S. at 872. Updating the line between on- and off-campus speech may be difficult in the
social media age, but it is a task we must undertake.
Thankfully, significant groundwork has been laid. In
2011, we decided two appeals as a full Court, J.S. and
Layshock, both of which involved a student’s fake
MySpace profile ridiculing a school official using crude
language. Although the profiles were created away from
school, they were not far removed from the school environment: They attacked school officials, used photos
copied from the schools’ websites, were shared with students, caused gossip at school and, in Layshock, were
viewed on school computers. J.S., 650 F.3d at 920–23;
Layshock, 650 F.3d at 207–09. Even so, in both decisions
we treated the profiles as “off-campus” speech. In J.S.,
we emphasized that the speech occurred “outside the
school, during non-school hours,” and deemed irrelevant
that a printout of the profile had been brought into the
school at the principal’s request. 650 F.3d at 932–33. We
went further in Layshock, rejecting the arguments that
the profile was “on-campus” speech because the profile
was “aimed at the School District Community and . . . accessed on campus,” 650 F.3d at 216, and because the
student had “enter[ed]” the school’s website to copy the
principal’s photo, id. at 214–16.

15a
J.S. and Layshock yield the insight that a student’s
online speech is not rendered “on campus” simply because
it involves the school, mentions teachers or administrators, is shared with or accessible to students, or reaches
the school environment. That was true in the analog era,
see, e.g., Thomas, 607 F.2d at 1050–52; see also Porter v.
Ascension Parish Sch. Bd., 393 F.3d 608, 611–12, 616–17
(5th Cir. 2004), and it remains true in the digital age.
Applying these principles to B.L.’s case, we easily conclude that her snap falls outside the school context. This
is not a case in which the relevant speech took place in a
“school-sponsored” forum, Fraser, 478 U.S. at 677, or in a
context that “bear[s] the imprimatur of the school,”
Kuhlmeier, 484 U.S. at 271. Nor is this a case in which
the school owns or operates an online platform. Cf. Oral
Arg. Tr. 25 (discussing a “school listserv”). Instead, B.L.
created the snap away from campus, over the weekend,
and without school resources, and she shared it on a social
media platform unaffiliated with the school. And while the
snap mentioned the school and reached MAHS students
and officials, J.S. and Layshock hold that those few points
of contact are not enough. B.L.’s snap, therefore, took
place “off campus.”4
Our concurring colleague asserts that it is “a fundamental principle
of judicial restraint” that we must avoid analyzing constitutional issues beyond those implicated by “the precise facts” before us.
Concurr. 1 [Pet.App.43a] (quoting Wash. State Grange v. Wash. State
Republican Party, 552 U.S. 442, 450 (2008) (discussing the disfavored
nature of facial challenges)). We take no issue with that general principle. Indeed, that principle explains why, although we had to tease
out the on- and off-campus distinction enough to be confident about
how to categorize B.L.’s speech, we have refrained from opining about
how that distinction should be applied in future cases. We fail to see
how our choice not to analyze hypothetical questions—for instance,
the exact boundaries of “school-supervised channels” for “all forms of

4

16a
3. The punishment of B.L.’s off-campus
speech violated the First Amendment
We next ask whether the First Amendment allowed
the School District to punish B.L. for her off-campus
speech. The District defends its decision under (i) Fraser,
(ii) Tinker, and (iii) a series of First Amendment doctrines
beyond the student speech context. We address each in
turn.
i. B.L.’s punishment cannot be justified
under Fraser
The School District principally defends its actions
based on its power “to enforce socially acceptable behavior” by banning “vulgar, lewd, obscene, or plainly
offensive” speech by students. Appellant’s Br. 7–8. Under Fraser, such speech receives “no First Amendment
protection . . . in school.” Saxe, 240 F.3d at 213 (emphasis
added). But the District’s argument runs aground on our
precedent holding that Fraser does not apply to off-campus speech. J.S., 650 F.3d at 932–33; Layshock, 650 F.3d
at 216–17, 219. As a panel, we may not revisit that precedent absent “intervening authority,” Reich v. D.M. Sabia
Co., 90 F.3d 854, 858 (3d Cir. 1996), which neither party
identifies here. See Morse, 551 U.S. at 405 (“Had Fraser
delivered the same speech in a public forum outside the
school context, it would have been protected.”).
To prevail under Fraser, therefore, the School District
social media students use that schools monitor,” or which types of
speech “constitute[] ‘harassment’ in the school and social media context,” id. at 3 [Pet.App.44a-45a]—shows a lack of judicial restraint.
Just as in all areas of constitutional law, future cases requiring additional analysis will supply the “facts” necessary “to draw . . . clear and
administrable line[s].” Id. [Pet.App.45a.]

17a
must explain why J.S. and Layshock do not supply the decisional rule. Its attempts to do so come in several
varieties but share the same thrust: that we should apply
Fraser to off-campus speech where the speech or punishment involved an extracurricular activity. We are
unpersuaded.
To begin, the argument collides with our precedent.
In Layshock, among several other punishments, the student was “banned from all extracurricular activities.” 650
F.3d at 210. But at no point did we suggest any relevant
distinction among the punishments he had received.
Quite the opposite: Although we acknowledged the Second Circuit had suggested a lesser degree of First
Amendment protection for punishments related to extracurricular activities, see Doninger ex rel. Doninger v.
Niehoff, 527 F.3d 41, 53 (2d Cir. 2008), in Layshock we declined to follow that analysis and even clarified that our
discussion of Doninger was not a “suggest[ion] that we
agree[d] with that court’s conclusion,” 650 F.3d at 218. All
that mattered to us in Layshock was that the school had
“punish[ed]” the student for his speech, see id. at 214, 216,
as B.L. was undoubtedly punished for hers.5

The District Court assumed without deciding that B.L.’s claim fell
within the First Amendment retaliation framework, which requires a
plaintiff to show that “(1) he engaged in constitutionally protected
conduct, (2) the defendant engaged in retaliatory action sufficient to
deter a person of ordinary firmness from exercising his constitutional
rights, and (3) a causal link [existed] between the constitutionally protected conduct and the retaliatory action.” Baloga v. Pittston Area
Sch. Dist., 927 F.3d 742, 752 (3d Cir. 2019) (alteration in original) (internal quotation marks and citation omitted). The parties here
dispute only whether B.L.’s speech was constitutionally protected.
For the same reasons as the District Court, we conclude that we need
not decide whether the retaliation framework is appropriate in this

5

18a
Even apart from Layshock’s guidance, we see no
sound reason why we should graft an extracurricular distinction onto our case law. Yes, students have “a reduced
expectation of privacy” under the Fourth Amendment
when they participate in extracurricular athletics.
Vernonia Sch. Dist. 47J v. Acton, 515 U.S. 646, 657, 661–
62, 665 (1995). But the School District’s reliance on that
line of cases is misplaced. In the Fourth Amendment context, “the ultimate measure of the constitutionality of a
governmental search is ‘reasonableness,’” a standard
which “is judged by balancing [the search’s] intrusion on
the individual’s Fourth Amendment interests against its
promotion of legitimate governmental interests.” Id. at
652–53 (citation omitted). The First Amendment, however, abhors “ad hoc balancing of relative social costs and
benefits.” United States v. Stevens, 559 U.S. 460, 470
(2010); accord, e.g., Brown v. Entm’t Merchants Ass’n,
564 U.S. 786, 792 (2011). That line dividing First from
Fourth Amendment doctrine is foundational, and we will
not blur it here.
The same goes for the argument that B.L. had no “constitutionally protected property right to participate in
extracurricular activities,” Appellant’s Br. 17. Be that as
it may,6 due process case law—which also “depends upon
a balancing of the individual rights and the governmental
context.
We have suggested that students have no cognizable property interest in extracurricular activities, Angstadt v. Midd-W. Sch. Dist., 377
F.3d 338, 344 (3d Cir. 2004), a suggestion echoed by several other circuits, see, e.g., Lowery v. Euverard, 497 F.3d 584, 588 (6th Cir. 2007);
Davenport ex rel. Davenport v. Randolph Cty. Bd. of Educ., 730 F.2d
1395, 1397 (11th Cir. 1984). We take no position here on the wisdom
or correctness of that proposition.
6

19a
interests affected,” Main Rd. v. Aytch, 522 F.2d 1080,
1090 (3d Cir. 1975)—is an equally poor fit in the First
Amendment context. To prevail on a free speech claim, a
plaintiff need not show that his interests in speaking outweigh the government’s interests in suppressing the
speech. Such a rule would “revise the ‘judgment [of] the
American people,’ embodied in the First Amendment,
‘that the benefits of its restrictions on the Government
outweigh the costs.’”7 Entm’t Merchants, 564 U.S. at 792
(alteration in original) (quoting Stevens, 559 U.S. at 470).
The School District next offers up an analogy: that students who join extracurriculars “represent their schools
much in the way that government employees represent
their employer.” Appellant’s Br. 30. So by going out for
the team, it posits, students subject their speech rights to
coaches’ whims so long as their speech does not involve “a
matter of public concern.” Id. (citing Pickering v. Bd. of
Educ., 391 U.S. 563, 568 (1968)). This argument, however,
depends on dicta from the Sixth Circuit, which went on to
clarify that it was not “grafting a public-concern requirement onto” student speech doctrine and had invoked the
Pickering doctrine only to discuss whether “disruption
will occur when a subordinate challenges the authority of
his or her superior.” See Lowery v. Euverard, 497 F.3d
584, 598 n.5 (6th Cir. 2007). And neither “the Supreme
Court nor any other federal court of appeals has held [the
Similarly unavailing is the School District’s argument that Pennsylvania law permits regulation of students’ “conduct and deportment”
only when they are “under the supervision of the board of school directors and teachers,” see 24 P.S. § 5-510, but authorizes regulation of
extracurricular activities without that limitation, see id. § 5-511.
Whether or not that is true is wholly beside the point, as state law
cannot excuse a violation of the federal constitution. See U.S. Const.
art. VI, cl. 2.

7

20a
personal matter/public concern] distinction applicable in
student speech cases.” Pinard v. Clatskanie Sch. Dist.
6J, 467 F.3d 755, 766 (9th Cir. 2006). The reason is simple:
As we have recognized, students’ free speech rights are
not limited to matters of public concern. See, e.g., J.S., 650
F.3d at 926 (“Although Tinker dealt with political speech,
the opinion has never been confined to such speech.”); see
also Pinard, 467 F.3d at 766 (“[N]either Tinker nor its
progeny limited students’ rights solely to the exercise of
political speech or speech that touches on a matter of public concern.”).
Above all, we cannot depart from J.S. and Layshock
without undermining the values those cases sought to protect. What was “unseemly and dangerous” about the
efforts to apply Fraser to off-campus speech was not the
punishments the students received, but that those punishments were used to “control” students’ free expression in
an area traditionally beyond regulation. Layshock, 650
F.3d at 216. Those concerns apply with equal force where
a school seeks to control student speech using even modest measures, much less participation in extracurricular
activities, which “are an important part of an overall educational program,” Br. of Amicus Curiae Foundation for
Individual Rights in Education 7–8 (citation omitted).
Thus, whatever the school’s preferred mode of discipline,
it implicates the First Amendment so long as it comes in
response to the student’s exercise of free speech rights.
No one challenges that is exactly what happened to
B.L. As a result, we can no more hold that B.L. abdicated
her First Amendment right to speak as a cheerleader
than we could return to bygone days in which a police officer was thought to have a “right to talk politics . . . [but
not] to be a policeman.” See O’Hare Truck Serv., Inc. v.

21a
City of Northlake, 518 U.S. 712, 716–17 (1996) (quoting
McAuliffe v. Mayor, 29 N.E. 517, 517 (Mass. 1892)). Instead, we conclude, Fraser did not authorize the School
District’s punishment of B.L. for her off-campus speech.
ii. Nor can B.L.’s punishment be justified
under Tinker
The School District falls back on Tinker, arguing that
B.L.’s snap was likely to substantially disrupt the cheerleading program. But as we have explained, although
B.L.’s snap involved the school and was accessible to
MAHS students, it took place beyond the “school context,” J.S., 650 F.3d at 932. We therefore confront the
question whether Tinker applies to off-campus speech.
That is a question we have avoided answering to date.
In Layshock, the school defended its decision to punish
the student only under Fraser. See 650 F.3d at 216. And
in J.S., we were able to “assume, without deciding,” that
Tinker applied to speech like J.S.’s, 650 F.3d at 926, because we held that the school had not “reasonably
forecast[] a substantial disruption of or material interference with the school,” id. at 931. But the question is once
again squarely before us,8 and for three reasons we conclude we must answer it today.
One of the amici supporting B.L. suggests we follow J.S. by assuming Tinker applies and holding that her snap did not satisfy the
substantial disruption standard. Br. of Amicus Curiae Foundation for
Individual Rights in Education 17. Another set of amici on B.L.’s side
takes a different view, contending that Tinker’s substantial disruption
standard “should not apply to off-campus speech.” Br. of Amici Curiae Electronic Frontier Foundation et al. 4 (capitalization altered).
For her part, B.L. takes a middle path: She argues that “[f]undamental First Amendment principles plainly forbid giving schools the
power to censor student speech outside of school,” Appellee’s Br. 12,
but as the appellee, she unsurprisingly adds we “need not answer that
8

22a
First, our choice to sidestep the issue in J.S. adhered
to the maxim that, where possible, we should avoid difficult constitutional questions in favor of simpler
resolutions. There, it was sensible to avoid the issue because we could resolve the case by applying well-settled
precedent addressing the substantial disruption standard
in the context of the school environment. See, e.g., Sypniewski v. Warren Hills Reg’l Bd. of Educ., 307 F.3d 243,
254–57 (3d Cir. 2002); Saxe, 240 F.3d at 211–12. But that
is not the case here. The School District’s defense of its
decision to punish B.L. focuses not on disruption of the
school environment at large, but on disruption in the extracurricular context—specifically, the cheerleading
program B.L. decried in her snap. And, as the parties’
and amici’s dueling citations reveal, the question of how to
measure the potentially disruptive effect of student
speech on particular extracurricular activities has bedeviled our sister circuits,9 and it is not one we have addressed
question in this case” because “even if it were clear that schools may
punish offensive, off-campus speech under Tinker (which it is not),”
the substantial disruption standard was not met here, id. at 12, 22.
And on the other side of the “v.,” both the School District and the amici
that support it argue that Tinker applies to off-campus speech like
B.L.’s. See, e.g., Appellant’s Br. 23 & n.1, 41; Br. of Amici Curiae National School Boards Association et al. 18–23.
Compare, e.g., Pinard, 467 F.3d at 760–61, 768–69 (holding that students’ distribution of a petition seeking their coach’s resignation did
not give rise to a reasonable forecast of substantial disruption, in part
because the students had reported the coach’s misbehavior in a “responsibly tailored” way (citation omitted)), with, e.g., id. at 769–70
(holding that the athletes’ refusal to board a bus before a game “substantially disrupted and materially interfered with a school activity”),
Lowery, 497 F.3d at 593–94 (holding that a similar petition requesting
a coach’s termination qualifies as substantially disruptive because of
its effect on “team morale and unity”), and Wildman ex rel. Wildman

9

23a
to date. So were we to leapfrog Tinker’s applicability in
favor of substantial disruption analysis, we would still face
complex and unresolved constitutional questions.10
v. Marshalltown Sch. Dist., 249 F.3d 768, 769–72 (8th Cir. 2001) (holding that a student athlete’s letter calling for teammates to criticize
their coach disturbed the goal of providing “an educational environment conducive to learning team unity and sportsmanship and free
from disruptions and distractions that could hurt or stray the cohesiveness of the team”).
Our concurring colleague argues that this case is “straightforward”
under Tinker’s substantial disruption standard, Concurr. 3
[Pet.App.45a], because school authorities conceded there was “no reason to believe that the Snap would disrupt classroom or school
activities,” e.g., Appellee’s Br. 8. But that is not the School District’s
argument. Rather, the District contends that B.L.’s snap was disruptive because it undercut the “team morale” and “chemistry” on which
the cheerleading program depends and because, in the unique context
of extracurricular activities, this is enough to satisfy Tinker. Appellant’s Br. 41. That contention finds some grounding in opinions from
other Courts of Appeals holding that because school athletics programs rely heavily on “team unity,” “cohesiveness,” and
“sportsmanship,” Wildman, 249 F.3d at 771, and advance a “narrower” set of goals than does the education system as a whole,
Lowery, 497 F.3d at 589, student speech that undermines those values
satisfies Tinker’s substantial disruption standard. See Lowery, 497
F.3d at 593–94; Wildman, 249 F.3d at 769–72. But see Pinard, 467
F.3d at 768–69. Here, B.L. does not dispute that her speech would
undermine team morale and chemistry: She openly criticized the program and questioned her coaches’ decisionmaking, causing a number
of teammates and fellow students to be “visibly upset” and to approach the coaches with their “concerns,” J.A. 7 (citations omitted).
She did so, moreover, in the context of a sport in which team members
rely on each other for not only emotional and moral support, but also
physical safety. In this context, we cannot so comfortably conclude
that assuming Tinker’s applicability and analyzing substantial disruption would yield a ready answer or a rule we could cogently explain
for the benefit of future cases. And while our colleague makes some
reference to these issues in a footnote, we do not think they can be

10

24a
Second, when we decided J.S., the social media revolution was still in its infancy, and few appellate courts had
grappled with Tinker’s application to off-campus online
speech. In avoiding the issue, we afforded our sister circuits the chance to coalesce around an approach and the
Supreme Court the chance to resolve the issue. Nearly a
decade later, however, we see not only that social media
has continued its expansion into every corner of modern
life, but also that no dominant approach has developed.
All the while, we have relegated district courts in this Circuit to confronting this issue without clear guidance,
prompting them to turn elsewhere for support, see, e.g.,
Dunkley v. Bd. of Educ., 216 F. Supp. 3d 485, 492–94
(D.N.J. 2016), and to voice their growing frustration. As
one of our district judges put it, “a district court in this
Circuit takes up a student off-campus speech case for review with considerable apprehension and anxiety.” R.L.
ex rel. Lordan v. Cent. York Sch. Dist., 183 F. Supp. 3d
625, 635 (M.D. Pa. 2016).
Finally, while legal uncertainty of any kind is undesirable, uncertainty in this context creates unique problems.
Obscure lines between permissible and impermissible
speech have an independent chilling effect on speech. See,
e.g., Ashcroft v. Free Speech Coal., 535 U.S. 234, 244 (2002)
(reasoning that the “uncertain reach” of a law punishing
speech would “chill speech within the First Amendment’s
vast and privileged sphere”). And because local officials
are liable for constitutional violations only where “every
reasonable official would understand that what he is doing
swept aside under the umbrella “that courts may consider all the ways
in which student speech may be disruptive,” Concurr. 4 n.1
[Pet.App.45a n.1]. At bottom, we think it unwise to explore these unresolved questions without assessing the threshold question whether
Tinker applies to B.L.’s speech in the first place.

25a
is unlawful,” Russell v. Richardson, 905 F.3d 239, 251 (3d
Cir. 2018) (internal quotation marks and citation omitted),
the unresolved issue of Tinker’s scope has left a significant obstacle in the path of any student seeking to
vindicate her free speech rights through a § 1983 suit. See,
e.g., Longoria ex rel. M.L. v. San Benito Indep. Consol.
Sch. Dist., 942 F.3d 258, 267 (5th Cir. 2019) (holding that
because the court had “declin[ed] to adopt a ‘specific
rule,’” its case law applying Tinker to off-campus speech
“does not constitute clearly-established binding law that
should have placed the defendants on notice about the
constitutionality of their actions”).
The time has come for us to answer the question. We
begin by canvassing the decisions of our sister circuits.
We then consider the wisdom of their various approaches,
tested against Tinker’s precepts. Finally, we adopt and
explain our own, concluding that Tinker does not apply to
off-campus speech and reserving for another day the First
Amendment implications of off-campus student speech
that threatens violence or harasses others.
a. Other courts’ approaches
Our sister circuits have approached this issue in three
ways. One group applies Tinker where it was reasonably
foreseeable that a student’s off-campus speech would
reach the school environment. That test sprung from trying circumstances: In Wisniewski ex rel. Wisniewski v.
Board of Education, 494 F.3d 34 (2d Cir. 2007), a student
created an instant messaging icon showing “a pistol firing
a bullet at a person’s head, above which were dots representing splattered blood,” and beneath which were the
words “Kill Mr. VanderMolen,” the student’s teacher. Id.
at 35–36. That icon was visible to the student’s “buddies,”
and he sent messages displaying it to fellow students. Id.

26a
at 36. In upholding his suspension, the Second Circuit
held that it was appropriate to apply Tinker because “it
was reasonably foreseeable that the IM icon would come
to the attention of school authorities,” id. at 39, and that
the violence-threatening speech satisfied Tinker’s substantial disruption standard, id. at 38–39. The Eighth
Circuit, in another case involving a threat of violence, took
the same approach. See D.J.M. ex rel. D.M. v. Hannibal
Pub. Sch. Dist. No. 60, 647 F.3d 754, 757–59, 765–67 (8th
Cir. 2011) (emphasizing that “student creativity and . . .
ability . . . can[not] flourish if violence threatens the school
environment”).
But from those cases involving threats of violence, the
“reasonable foreseeability” standard spread far and wide.
Multiple circuits have applied it in cases involving sexual
or racial harassment. See C.R. ex rel. Rainville v. Eugene
Sch. Dist. 4J, 835 F.3d 1142, 1146, 1151 (9th Cir. 2016);
S.J.W. ex rel. Wilson v. Lee’s Summit R-7 Sch. Dist., 696
F.3d 771, 773, 777–78 (8th Cir. 2012). And the Second Circuit has applied it in a case involving neither violence nor
harassment: In Doninger, the court used it to assess the
punishment of a student who urged others to contact a
school official to protest a concert’s postponement. 527
F.3d at 44–45, 48–52. The Eighth Circuit has likewise suggested that the standard governs all forms of off-campus
speech, not just violent threats and harassment. S.J.W.,
696 F.3d at 777.
Another group of circuits applies Tinker to off-campus
speech with a sufficient “nexus” to the school’s “pedagogical interests.” Kowalski v. Berkeley Cty. Schs., 652 F.3d
565, 573 (4th Cir. 2011). Kowalski involved a student who
created a MySpace page harassing a fellow student. Id.
at 567–68. In assessing the student’s suspension, the

27a
Fourth Circuit emphasized that student-on-student harassment “can cause victims to become depressed and
anxious, to be afraid to go to school, and to have thoughts
of suicide.” Id. at 572 (citation omitted). Concluding that
schools “must be able to prevent and punish harassment
and bullying in order to provide a safe school environment,” id., the court held that the speech bore a “sufficient
nexus with the school” justifying Tinker’s application, id.
at 577. The Ninth Circuit has also applied the nexus test
in a case involving off-campus sexual harassment. C.R.,
835 F.3d at 1150–51.
Finally, some circuits have applied Tinker to off-campus speech without articulating a governing test or
standard. See, e.g., Bell v. Itawamba Cty. Sch. Bd., 799
F.3d 379, 394 (5th Cir. 2015) (en banc) (declining to “adopt
a specific rule” but applying Tinker to a student who “intentionally direct[ed] at the school community [a] rap
recording containing threats to, and harassment and intimidation of, two teachers”); Wynar v. Douglas Cty. Sch.
Dist., 728 F.3d 1062, 1069 (9th Cir. 2013) (declining to “divine and impose a global standard for . . . off-campus
speech” but holding that Tinker reaches off-campus
speech presenting “an identifiable threat of school violence”).
b. Issues with these approaches
We sympathize with our sister circuits, which have
faced the unenviable task of assessing students’ free
speech rights against the backdrop of “school officials’
need to provide a safe school environment,” LaVine v.
Blaine Sch. Dist., 257 F.3d 981, 983 (9th Cir. 2001), and
find much to commend in their thoughtful opinions. Ultimately, however, we find their approaches unsatisfying in
three respects.

28a
First, “bad facts make bad law,” United States v. Joseph, 730 F.3d 336, 337 (3d Cir. 2013), and one
unmistakable trend from the case law is that the most
challenging fact patterns have produced rules untethered
from the contexts in which they arose. The Second Circuit
provides a case in point. It is understandable that the
court in Wisniewski, focusing on the threat of violence
bound up in the student’s speech, upheld the school’s authority to discipline him. See 494 F.3d at 39–40. As other
courts have recognized, “we live in a time when school violence is an unfortunate reality that educators must
confront on an all too frequent basis,” LaVine, 257 F.3d at
987, and in doing so, they “must be vigilant” and “react to
potential threats before violence erupts,” Bell, 799 F.3d at
393. But in Doninger, the Second Circuit reflexively applied Wisniewski’s reasonable foreseeability test to a fact
pattern of a very different sort: a student’s protest of a
school’s decision to postpone an event. What began as a
narrow accommodation of unusually strong interests on
the school’s side, cf. Wynar, 728 F.3d at 1069 (distinguishing “an identifiable threat of school violence” from
“myriad” other fact patterns), became a broad rule governing all off-campus expression. A similar dynamic took
place with the “nexus” test, in that specialized concerns
related to “harassment and bullying in the school environment,” Kowalski, 652 F.3d at 572, produced a rule making
off-campus free speech rights depend on the speech’s connection to a school’s “pedagogical interests,” id. at 573.
Second, and as a result of this expansionary dynamic,
our sister circuits have adopted tests that sweep far too
much speech into the realm of schools’ authority. Start
with reasonable foreseeability. Technology has brought
unprecedented interconnectivity and access to diverse
forms of speech. In the past, it was merely a possibility,

29a
and often a remote one, that the speech of a student who
expressed herself in the public square would “reach” the
school. But today, when a student speaks in the “modern
public square” of the internet, Packingham, 137 S. Ct. at
1737, it is highly possible that her speech will be viewed
by fellow students and accessible from school. And in
some situations, it is a virtual certainty: Depending on the
settings favored by that student’s “friends” or “followers,” her message may automatically pop up on the face of
classmates’ phones in the form of notifications from Instagram, Facebook, Twitter, Snapchat, or any number of
other social platforms. Implicit in the reasonable foreseeability test, therefore, is the assumption that the internet
and social media have expanded Tinker’s schoolhouse
gate to encompass the public square. That assumption is
not one we can accept, though, because it subverts the
longstanding principle that heightened authority over
student speech is the exception rather than the rule. And
it contradicts the Supreme Court’s instruction, in cases
like Packingham and Reno, to apply legal precedent
faithfully even when confronted with new technologies.11
By way of example, imagine a student who, off campus and over the
weekend, writes a blog post identifying every teacher he thinks is incompetent. Imagine that he then shares the post on a social media
platform where it is visible to many fellow students. It is a near certainty that the post will “reach campus,” Doninger, 527 F.3d at 48:
Students are likely to chat about it in the lunchroom, view it surreptitiously in class, or even share it with school officials. But that type of
downstream “reach[ing]” the “campus,” id., is “different in kind” from
a student’s choice to “stand[] up during a lecture” and share similar
thoughts about the teacher’s incompetence. See Lee Goldman, Student Speech and the First Amendment: A Comprehensive Approach,
63 Fla. L. Rev. 395, 407 n.92 (2011) (citation omitted). If it is to remain
a limited carveout from students’ general “free speech rights,” see
J.S., 650 F.3d at 932, Tinker must apply only to the latter. See also
11

30a
The nexus test suffers from similar overbreadth. In
holding that schools have regulatory authority over any
speech, whether on or off campus, that “interfere[s] with
the work and discipline of the school,” Kowalski, 652 F.3d
at 574, it collapses Tinker’s scope of application and rule
into one analytical step. The result is tautological:
Schools can regulate off-campus speech under Tinker
when the speech would satisfy Tinker. And the effect is
to erase the dividing line between speech in “the school
context” and beyond it, J.S., 650 F.3d at 927, a line which
is vital to young people’s free speech rights. Worse, in extending Tinker wherever there is a “nexus” to
“pedagogical interests,” Kowalski, 652 F.3d at 573, the
test raises the specter of officials’ asserting the power to
regulate “any student speech that interferes with [the]
school’s educational mission,” a power that “can easily be
manipulated in dangerous ways.” J.S., 650 F.3d at 927 (internal quotation marks omitted) (quoting Morse, 551 U.S.
at 423 (Alito, J., concurring)). Such an expansion of
schools’ regulatory power would have “ominous implications” indeed. J.S., 650 F.3d at 939–40 (Smith, J.,
concurring) (exploring the consequences not only for students, but also for adults, of extending Tinker to offcampus speech).
Third, other circuits’ approaches have failed to provide
clarity and predictability. This is true for those that have
“declined to adopt a rule,” e.g., Bell, 799 F.3d at 394, leaving “students, teachers, and school administrators”
without “clear guidance,” Longoria, 942 F.3d at 265 (citation omitted). But it is also true for those that have
id. at 939 (Smith, J., concurring) (discussing the hypothetical of a student who writes an off-campus blog post taking a position that causes
fellow students to react on campus).

31a
crafted a rule. In layering a foreseeability requirement
on top of Tinker, the Second and Eighth Circuits have
made it difficult for students speaking off campus to predict when they enjoy full or limited free speech rights.
After all, a student can control how and where she speaks
but exercises little to no control over how her speech may
“come to the attention of the school authorities,” D.J.M.,
647 F.3d at 766 (quoting Wisniewski, 494 F.3d at 39). The
nexus test, too, affords little clarity, leaving students to
wonder what types of speech might implicate a school’s
“pedagogical interests,” Kowalski, 652 F.3d at 573. And
in the First Amendment context, courts must pursue ex
ante clarity not for clarity’s own sake, but to avoid chilling
potential speech and to give government officials notice of
the constitutional boundaries they may not cross.
In the end, although the courts to address this issue
have done so thoughtfully, we conclude that their approaches sweep in too much speech and distort Tinker’s
narrow exception into a vast font of regulatory authority.
We must forge our own path.
c. Our approach
We hold today that Tinker does not apply to off-campus speech—that is, speech that is outside school-owned,
-operated, or -supervised channels and that is not reasonably interpreted as bearing the school’s imprimatur. In
so holding, we build on a solid foundation, for in his concurrence in J.S., now-Chief Judge Smith, joined by four
colleagues, embraced this rule, explaining “that the First
Amendment protects students engaging in off-campus
speech to the same extent it protects speech by citizens in
the community at large.” 650 F.3d at 936. That rule is
true to the spirit of Tinker, respects students’ rights, and
provides much-needed clarity to students and officials

32a
alike.
From the outset, Tinker has been a narrow accommodation: Student speech within the school context that
would “materially and substantially interfere[] with the
requirements of appropriate discipline,” Tinker, 393 U.S.
at 505 (citation omitted), is stripped of the constitutional
shield it enjoys “outside [that] context,” Morse, 551 U.S.
at 405. Tinker’s focus on disruption makes sense when a
student stands in the school context, amid the “captive audience” of his peers. Fraser, 478 U.S. at 684. But it makes
little sense where the student stands outside that context,
given that any effect on the school environment will depend on others’ choices and reactions.
Recent technological changes reinforce, not weaken,
this conclusion. Like all who have approached these issues, we are “mindful of the challenges school
administrators face,” including the need to manage the
school environment in the digital age. Layshock, 650 F.3d
at 222 (Jordan, J., concurring). We are equally mindful,
however, that new communicative technologies open new
territories where regulators might seek to suppress
speech they consider inappropriate, uncouth, or provocative. And we cannot permit such efforts, no matter how
well intentioned, without sacrificing precious freedoms
that the First Amendment protects. The consensus in the
analog era was that controversial off-campus speech was
not subject to school regulation, see, e.g., Porter, 393 F.3d
at 611–12, 615–16; Thomas, 607 F.2d at 1050–52, and Reno
and Packingham require that we adhere to that principle
even as the speech moves online.12

Several circuits have applied Tinker to speech that the speaker
brought into the campus environment. See, e.g., Boim v. Fulton Cty.

12

33a
Holding Tinker inapplicable to off-campus speech also
offers the distinct advantage of offering up-front clarity to
students and school officials. To enjoy the free speech
rights to which they are entitled, students must be able to
determine when they are subject to schools’ authority and
when not. A test based on the likelihood that speech will
reach the school environment—even leaving aside doubts
about what it means to “reach” the “school environment”—fails to provide that clarity. The same is true for
a test dependent on whether the student’s speech has a
sufficient “nexus” to unspecified pedagogical interests or
would substantially disrupt the school environment.13 But
a test based on whether the speech occurs in a context
owned, controlled, or sponsored by the school is much
more easily applied and understood. That clarity benefits
students, who can better understand their rights, but it
also benefits school administrators, who can better understand the limits of their authority and channel their
regulatory energies in productive but lawful ways.
Nothing in this opinion questions school officials’
Sch. Dist., 494 F.3d 978, 980–85 (11th Cir. 2007) (upholding a suspension of a student who, in class, showed another student a violent story
she had written at home); Boucher v. Sch. Bd., 134 F.3d 821, 822, 827–
29 (7th Cir. 1998) (applying Tinker to a student newspaper written
outside school but distributed “in bathrooms, in lockers and in the cafeteria”). Our holding tracks those cases because they do not involve
“off-campus” speech at all. A student who brings a printed story into
campus and shows it to fellow students has expressed herself inside
the school context regardless whether she wrote the story at home or
in class. So too with a student who opens his cellphone and shows a
classmate a Facebook post from the night before.
Our divided precedent shows it is often not easy to predict whether
speech will satisfy Tinker’s substantial disruption standard. Compare, e.g., J.S., 650 F.3d at 928–31, with, e.g., id. at 943–50 (Fisher, J.,
dissenting).
13

34a
“comprehensive authority” to regulate students when
they act or speak within the school environment. J.S., 650
F.3d at 925 (quoting Tinker, 393 U.S. at 507). Tinker applies, as it always has, to any student who, on campus,
shares or reacts to controversial off-campus speech in a
disruptive manner. That authority is not insignificant,
and it goes a long way toward addressing the concern,
voiced by the School District and our concurring colleague, that holding Tinker is limited to on-campus
speech will “sow . . . confusion” about what to do when a
student’s controversial off-campus speech “provoke[s]
significant disruptions within the school,” Concurr. 6
[Pet.App.48a]. The answer is straightforward: The
school can punish any disruptive speech or expressive
conduct within the school context that meets Tinker’s
standards—no matter how that disruption was “provoke[d].” It is the off-campus statement itself that is not
subject to Tinker’s narrow recognition of school authority. But at least in the physical world, that is nothing new,
and no one, including our colleague, has second-guessed
that longstanding principle or suggested that a student
who advocated a controversial position on a placard in a
public park one Saturday would be subject to school discipline. We simply hold today that the “online” nature of
that off-campus speech makes no constitutional difference. See supra pages 11–16 [Pet.App.11a–15a].
Nor are we confronted here with off-campus student
speech threatening violence or harassing particular students or teachers. A future case in the line of Wisniewski,
D.J.M., Kowalski, or S.J.W., involving speech that is reasonably understood as a threat of violence or harassment
targeted at specific students or teachers, would no doubt
raise different concerns and require consideration of
other lines of First Amendment law. Cf. Layshock, 650

35a
F.3d at 209–10, 219 (holding that the student’s parody
MySpace page was protected speech even though the
school had deemed it “[h]arassment of a school administrator”); J.S., 650 F.3d at 922, 933 (holding the same even
though the school’s principal had contacted the police to
press harassment charges). And while we disagree with
the Tinker-based theoretical approach that many of our
sister circuits have taken in cases involving students who
threaten violence or harass others, our opinion takes no
position on schools’ bottom-line power to discipline speech
in that category. After all, student speech falling into one
of the well-recognized exceptions to the First Amendment
is not protected, cf. Doe v. Pulaski Cty. Special Sch. Dist.,
306 F.3d 616, 619, 621–27 (8th Cir. 2002) (en banc) (upholding a school’s punishment of a student who wrote a
threatening letter under the “true threat” doctrine);
speech outside those exceptions may be regulated if the
government can satisfy the appropriate level of scrutiny,
see, e.g., Williams-Yulee v. Fla. Bar, 135 S. Ct. 1656,
1665–72 (2015); cf. Oral Arg. Tr. 28 (exploring whether actions taken to prevent student-on-student harassment
could satisfy strict scrutiny); and, perhaps most relevant,
the Supreme Court has recognized that a sufficiently
weighty interest on the part of educators can justify a narrow exception to students’ broader speech rights, see
Morse, 551 U.S. at 407–08. We hold only that off-campus
speech not implicating that class of interests lies beyond
the school’s regulatory authority.
True, our rule leaves some vulgar, crude, or offensive
speech beyond the power of schools to regulate. Yet we
return to Tinker and find in its pages wisdom and comfort:
[O]ur Constitution says we must take this

36a
risk, and our history says that it is this sort
of hazardous freedom—this kind of openness—that is the basis of our national
strength and of the independence and vigor
of Americans who grow up and live in this
relatively permissive, often disputatious,
society.
393 U.S. at 508–09 (internal citation omitted); see Barnette, 319 U.S. at 641 (encouraging courts to “apply the
limitations of the Constitution with no fear that freedom
to be intellectually and spiritually diverse or even contrary will disintegrate the social organization”).
Tinker’s careful delineation of schools’ authority, like
these principles, is no less vital even in today’s digital age
to ensure “adequate breathing room for valuable, robust
speech.” J.S., 650 F.3d at 941 (Smith, J., concurring). For
these reasons, we hold that Tinker does not apply to offcampus speech and thus cannot justify the decision to
punish B.L.
iii. None of the School District’s remaining
arguments justifies its punishment of
B.L.
Moving beyond student speech,14 the School District
advances a few arguments for why B.L.’s snap enjoyed no
First Amendment protection at all. Each is unsuccessful.
First, the School District contends that “vulgar language [i]s ‘low-value speech’ that c[an] be restricted ‘to a
The School District does not suggest it had a right to regulate B.L.’s
snap under Kuhlmeier or Morse. Nor could it: No reasonable listener
could have concluded that B.L.’s snap amounted to “speech of the
school itself,” Saxe, 240 F.3d at 213–14, or speech “promoting illegal
drug use,” Morse, 551 U.S. at 403.

14

37a
greater extent than would otherwise be permissible.’”
Appellant’s Br. 35 (quoting C.H. ex rel. Z.H. v. Oliva, 226
F.3d 198, 211 (3d Cir. 2000) (Alito, J., dissenting)). But in
doing, the District relies on a dissenting opinion, and in
any event its selective quotation omits the prepositional
phrase “[i]n the public schools” and our citation of Fraser,
see C.H., 226 F.3d at 211 (Alito, J., dissenting), both of
which make clear we were not making a broad statement
that non-obscene profanity enjoys reduced First Amendment protection. Had we made such a statement, it would
have defied decades of settled law. See, e.g., Cohen v. California, 403 U.S. 15, 20 (1971).
Second, the School District argues B.L.’s snap was unprotected because it “expressed no opinion.” Appellant’s
Br. 34–35. In support, it quotes B.L., who, when asked
whether she was “trying to send a message,” replied she
“was just mad about everything.” Id. at 34 (quoting J.A.
65). This argument borders on the frivolous. The “particular four-letter word” B.L. used “is perhaps more
distasteful than most others of its genre,” but “one man’s
vulgarity is another’s lyric,” Cohen, 403 U.S. at 25, and
here, B.L. used it to vent her frustrations with the cheerleading program. There is no doubt B.L.’s snap was
“imbued with elements of communication,” Troster v. Pa.
State Dep’t of Corr., 65 F.3d 1086, 1090 (3d Cir. 1995) (citation omitted), and thus deserving of First Amendment
protection.
Finally, the School District argues that “profane speech
is not protected when aimed at minors.” Appellant’s Reply 2 (capitalization altered). Again, the District misses
the mark. Its argument relies on FCC v. Pacifica Foundation, 438 U.S. 726 (1978), a case involving the sui
generis context of radio broadcasting, which is “uniquely

38a
accessible to children,” id. at 749. But nowhere did
Pacifica suggest that indecent speech falls outside the
First Amendment. Moreover, B.L.’s snap was no more
indecent, or targeted at an “intended audience [of] minors,” Appellant’s Reply 3, than the MySpace profiles we
held were entitled to First Amendment protection in J.S.
and Layshock.
For these reasons, we hold that B.L.’s snap was not
subject to regulation under Tinker or Fraser and instead
enjoyed the full scope of First Amendment protections.
B.

B.L.’s Did Not Waive Her Free Speech
Rights

The School District next argues that by agreeing to
certain school and team rules, B.L. waived her First
Amendment right to post the “fuck cheer” snap. We disagree.
To begin, we note that the District Court ruled that
requiring B.L. to waive her First Amendment rights as a
condition of joining the team violated the unconstitutional
conditions doctrine, see Koontz v. St. Johns River Water
Mgmt. Dist., 570 U.S. 595, 604–06 (2013), and that both
B.L. and an amicus urge us to affirm that ruling. No
doubt, for the government to condition participation in a
beneficial program on a waiver of First Amendment
rights raises serious constitutional concerns, particularly
where the government “seek[s] to leverage [benefits] to
regulate speech outside the contours of the program itself.” Agency for Int’l Dev. v. All. for Open Soc’y Int’l,
Inc., 570 U.S. 205, 214–15 (2013); see also, e.g., FCC v.
League of Women Voters of Cal., 468 U.S. 364, 399–401
(1984). At the same time, however, the line between constitutional and unconstitutional conditions “is hardly
clear,” Agency for Int’l Dev., 570 U.S. at 215, and there

39a
are a wide range of extracurricular activities and student
roles that may make conditions on speech more or less
connected to the needs of the program. Fortunately, we
need not decide on which side of the line this case falls because we conclude that B.L. did not waive her right to the
speech at issue here.
All rights, including free speech rights, can be waived.
Curtis Publ’g Co. v. Butts, 388 U.S. 130, 142–43 (1967).
But waivers “must be voluntary, knowing, . . . intelligent, . . . [and] established by ‘clear’ and ‘compelling’
evidence,” Erie Telecomms., Inc. v. City of Erie, 853 F.2d
1084, 1094 (3d Cir. 1988) (citation omitted), and courts
must “indulge in every reasonable presumption against
waiver,” id. at 1095 (quoting Johnson v. Zerbst, 304 U.S.
458, 464 (1938)). Applying those standards, we conclude
that B.L.’s snap does not clearly “fall within the scope,”
United States v. Wilson, 707 F.3d 412, 414 (3d Cir. 2013)
(citation omitted), of any of the rules on which the School
District relies.
We begin with the “Respect Rule” governing MAHS
cheerleaders:
Please have respect for your school,
coaches, teachers, other cheerleaders and
teams. Remember, you are representing
your school when at games, fundraisers,
and other events. Good sportsmanship will
be enforced[;] this includes foul language
and inappropriate gestures.
J.A. 439. B.L.’s snap contained foul language and disrespected her school and team. But the rule’s language
suggests it applies only “at games, fundraisers, and other
events,” a suggestion echoed by its invocation of “[g]ood
sportsmanship.” Id. That would not cover a weekend post

40a
to Snapchat unconnected with any game or school event
and before the cheerleading season had even begun. And
common sense supports this reading: It is hard to believe
a reasonable student would understand that by agreeing
to the Respect Rule, she was waiving all rights to malign
the school once safely off campus and in the world at large.
Indeed, one of the cheerleading coaches recognized that
the rule “doesn’t say anything about not being able to use
foul language or inappropriate gestures . . . away from
school.” J.A. 90. So this rule is of no help to the School
District.
The “Negative Information Rule” is likewise inapplicable. It states “[t]here will be no toleration of any
negative information regarding cheerleading, cheerleaders, or coaches placed on the internet.” J.A. 439. Unlike
the Respect Rule, this rule by its terms reaches off-campus speech. But it reaches only “information,” id., a term
denoting matters of fact, see, e.g., Information, Merriam
Webster’s Collegiate Dictionary (10th ed. 1997) (“the communication or reception of knowledge or intelligence”;
“knowledge obtained from investigation, study, or instruction”), not mere expressions of opinion or emotion.
We are hard pressed to find in the words “fuck cheer” any
discernable negative information about the cheerleading
program. And although B.L.’s second snap contains information about the varsity team’s acceptance of an
incoming freshman, nothing in the record suggests B.L.’s
punishment was based on that snap or the information it
revealed. So this rule, too, provides no basis for a finding
of waiver.
The School District’s last recourse is the “Personal
Conduct Rule” in MAHS’s student handbook. It provides:

41a
Participation on an athletic team or cheerleading squad in the Mahanoy Area School
District is a privilege and the participants
must earn the right to represent Mahanoy
Schools by conducting themselves in such a
way that the image of the Mahanoy School
District would not be tarnished in any manner. Any participant whose conduct is
judged to reflect a discredit upon himself/herself, the team, or the Mahanoy
Schools, whether or not such activity takes
place during or outside school hours during
the sports season, will be subject to disciplinary action as determined by the coach, the
athletic director and/or the school principal.
J.A. 486. This rule does not lend itself to a finding of
waiver for two reasons. First, it applies only “during the
sports season,” id., but B.L. posted her snap after the previous season had ended and before practices for the next
season had begun. Second, the rule’s language gives few
clear markers, applying wherever a student’s behavior
would “tarnish[]” the school’s “image” in “any manner,”
J.A. 486. That language is too obscure, and too dependent
on the whims of school officials, to give rise to a knowing
and voluntary waiver of B.L.’s rights to speak as she did.
We therefore hold that B.L.’s snap was not covered by
any of the rules on which the School District relies and
reject its contention that B.L. waived her First Amendment rights.
*
*
*
The heart of the School District’s arguments is that it
has a duty to “inculcate the habits and manners of civility”
in its students. Appellant’s Br. 24 (citation omitted). To

42a
be sure, B.L.’s snap was crude, rude, and juvenile, just as
we might expect of an adolescent. But the primary responsibility for teaching civility rests with parents and
other members of the community. As arms of the state,
public schools have an interest in teaching civility by example, persuasion, and encouragement, but they may not
leverage the coercive power with which they have been
entrusted to do so. Otherwise, we give school administrators the power to quash student expression deemed crude
or offensive—which far too easily metastasizes into the
power to censor valuable speech and legitimate criticism.
Instead, by enforcing the Constitution’s limits and upholding free speech rights, we teach a deeper and more
enduring version of respect for civility and the “hazardous
freedom” that is our national treasure and “the basis of
our national strength.” Tinker, 393 U.S. at 508–09.
III.

CONCLUSION

For the foregoing reasons, we will affirm the judgment of the District Court.
AMBRO, Circuit Judge, concurring in the judgment
I concur in the judgment affirming the District Court’s
grant of summary judgment to B.L. on the narrow ground
that our holdings in Layshock ex rel. Layshock v. Hermitage School District, 650 F.3d 205 (3d Cir. 2011) (en
banc), and J.S. ex rel. Snyder v. Blue Mountain School
District, 650 F.3d 915 (3d Cir. 2011) (en banc), mandate
that outcome. I dissent from the majority’s holding that,
on the facts before us, the holding in Tinker v. Des Moines
Independent Community School District, 393 U.S. 503
(1969)—that schools may regulate student speech only if

43a
it “substantially disrupt[s] the work and discipline of the
school,” id. at 513—does not apply to “off-campus”
speech.
I dissent because it is a fundamental principle of judicial restraint that courts should “neither anticipate a
question of constitutional law in advance of the necessity
of deciding it nor formulate a rule of constitutional law
broader than is required by the precise facts to which it is
to be applied.” Wash. State Grange v. Wash. State Republican Party, 552 U.S. 442, 450 (2008) (citing Ashwander v.
Tenn. Valley Auth., 297 U.S. 288, 346–47 (1936)) (quotation marks omitted). Cf. Golden v. Zwickler, 394 U.S. 103,
108 (1969) (“For adjudication of constitutional issues[,]
concrete legal issues[] presented in actual cases, not abstractions[,] are requisite.”) (citation and quotation marks
omitted).
In Tinker the Supreme Court held that public school
students do not shed their freedom of speech at the
“schoolhouse gate,” 393 U.S. at 506, and their expression
may not be suppressed unless, to repeat, school officials
reasonably conclude that it will “materially and substantially disrupt the work and discipline of the school,” id. at
513. Our Court in two en banc rulings expressly declined
to hold that Tinker does not apply to off-campus speech
and applied Tinker’s reasoning to those cases. See
Layshock, 650 F.3d at 219 (“We need not now define the
precise parameters of when the arm of authority can
reach beyond the schoolhouse gate because . . . the district court found that [the student’s] conduct did not
disrupt the school.”); id. at 220 (Jordan, J., concurring)
(stating that the majority did not decide whether Tinker
applies off campus and arguing that it does); J.S., 650 F.3d
at 928–31, 933 (assuming Tinker governs and applying it;

44a
“[n]either the Supreme Court nor this Court has ever allowed schools to punish students for off-campus speech
that is not school-sponsored or at a school-sponsored
event and that caused no substantial disruption at
school”). In both en banc cases we held in favor of students who had been suspended from school, and
disciplined in other ways, for creating websites, while not
on school property and not using school computers, mocking in appalling terms school officials. We concluded that
the schools could not “punish a student for expressive conduct that originated outside of the schoolhouse, did not
disturb the school environment and was not related to any
school sponsored event.” Layshock, 650 F.3d at 207.
B.L. concedes we need not decide whether Tinker’s
test applies off campus. See, e.g., Appellee’s Br. 22 (“It is
an open question whether public schools can ever punish
students’ out-of-school speech—even if the Tinker standard is satisfied . . . . The Court need not answer that
question in this case.”). Nonetheless, my colleagues in the
majority hold that “Tinker does not apply to off-campus
speech—that is, speech that is outside school-owned,
-operated, or -supervised channels and that is not reasonably interpreted as bearing the school’s imprimatur[,]”
Maj. Op. 33 [Pet.App.31a], and leave open the door for
schools to regulate off-campus student speech if it threatens violence or harasses particular students or teachers,
id. at 37 [Pet.App.35a]. However, the case before us does
not involve “school-supervised channels,” nor does it concern speech that carried the school imprimatur, or was
violent or threatening. So it comes as no surprise that the
majority does not give guidance on how its new rule is to
be applied. How do we define school-supervised channels? Do these channels include all forms of social media
students use that schools monitor? What type of speech

45a
constitutes “harassment” in the school and social media
context? Indeed there are no facts before us to draw a
clear and administrable line for this new rule that Tinker
does not apply to off-campus speech.
The case before us is straightforward—B.L.’s Snap is
not close to the line of student speech that schools may
regulate. B.L. was suspended from her school’s cheerleading team as punishment for a Snap that said “fuck
cheer,” which she created on her own smartphone, on her
own time on a weekend, while off-campus, and not participating in any school-sponsored activity. The Snap did not
mention the School District, the school, or any individuals,
and did not feature any team uniforms, school logos, or
school property. It caused complaints by a few other
cheerleaders but no “substantial disruptions,” and the
coaches testified that they did not expect the Snap would
substantially disrupt any activities in the future.1
We have already rejected the School District’s principal argument, specifically that Bethel School District
Number 403 v. Fraser, 478 U.S. 675 (1986), allows schools
My colleagues cite Lowery v. Euverard, 497 F.3d 584 (6th Cir. 2007),
and Wildman ex rel. Wildman v. Marshalltown School District, 249
F.3d 768 (8th Cir. 2001), among other cases, to argue that B.L.’s case
is actually a nuanced one because it involves student athletics. However, both Lowery, 497 F.3d at 593–94, and Wildman, 249 F.3d at 771,
expressly applied Tinker’s “substantial disruption” test and considered the effect of the students’ speech on team morale in deciding
whether it caused a disruption. In my view, there is nothing controversial about the notion that courts may consider all the ways in which
student speech may be disruptive, including its effect on student activities such as sports and sportsmanship. That is indeed what the
District Court did here; it considered all the alleged disruptive effects
of B.L.’s speech and concluded that under Tinker, J.S., and Layshock,
B.L.’s speech was not disruptive. I agree with the District Court and
would affirm on the same ground.

1

46a
to punish students for their offensive or profane speech
when the speech takes place off campus, outside of school
activities, and without the use of school resources. J.S.,
650 F.3d at 920, 923, 925, 932–33 & n.12; Layshock, 650
F.3d at 209, 219. And none of the other narrow exceptions
to Tinker apply. B.L.’s Snap did not bear the imprimatur
of the school in the way a school-sponsored newspaper
does, see Hazelwood Sch. Dist. v. Kuhlmeier, 484 U.S.
260, 262 (1988), and she did not send her Snap from a
school-supervised or -sanctioned event nor to anyone at
such an event, see Morse v. Frederick, 551 U.S. 393, 396–
97 (2007).
My colleagues correctly point out that the School District’s remaining arguments also are unavailing. That
students have a reduced expectation of privacy under the
Fourth Amendment when they participate in extracurricular athletics, see Vernonia Sch. Dist. 47J v. Acton, 515
U.S. 646, 657, 661–62, 665 (1995), has no bearing on our
First Amendment jurisprudence. We have never and decline now to “graft an extracurricular distinction onto our
[First Amendment] case law.” Maj. Op. 18 [Pet.App.18a].
I agree. Nor am I aware of any other circuit court that
has adopted such a distinction.
Thus Tinker and its progeny, and our en banc decisions in Layshock and J.S., dictate that the School District
violated B.L.’s First Amendment rights. That is all we
had to say.
Instead, ours is the first Circuit Court to hold that
Tinker categorically does not apply to off-campus speech.
A few Circuits have flirted with such a holding and have
declined to apply Tinker to off-campus speech on a caseby-case basis. See, e.g., Porter v. Ascension Par. Sch. Bd.,

47a
393 F.3d 608, 615, 619–20 (5th Cir. 2004) (declining to apply Tinker where student at home drew a picture of school
being attacked, and that picture inadvertently ended up
on campus, because it was off-campus speech not directed
at the school and the student took no step to bring the
speech on campus); Thomas v. Bd. of Educ., 607 F.2d
1043, 1051 (2d Cir. 1979) (holding that school violated students’ speech rights by suspending them for publishing an
underground lewd newspaper that was printed and distributed off campus, even if an occasional article was
composed on campus, because the newspaper was “offcampus expression”). However, those same Circuit
Courts have subsequently applied Tinker to off-campus
speech. See, e.g., Wisniewski v. Bd. of Educ. of Weedsport
Cent. Sch. Dist., 494 F.3d 34, 39–40 (2d Cir. 2007) (applying Tinker to uphold punishment of student who sent
instant messages to fellow students from home computer
during non-school hours depicting teacher being shot because the student’s hostile off-campus speech posed a
reasonably foreseeable threat of disruption in school);
Bell v. Itawamba Cty. Sch. Bd., 799 F.3d 379, 396 (5th Cir.
2015) (en banc), cert. denied, 136 S. Ct. 1166 (2016) (declining to “adopt any rigid standard,” but applying Tinker
to a student who posted off site a song recording that
threatened and harassed two teachers); see also Doninger
v. Niehoff, 527 F.3d 41, 50–53 (2d Cir. 2008) (applying
Tinker to uphold punishment of student whose blog demeaned school administrators for cancelling a school
concert, and clarifying that Thomas v. Board of Education did not stand for the proposition that off-campus
speech may never be punished).
The bottom line is that Circuit Courts facing harder
and closer calls have stayed their hand and declined to

48a
rule categorically that Tinker does not apply to off-campus speech. Yet we do so here in a case bereft of
substantial disruptions within the school. I fear that our
decision will sow further confusion. For example, how
does our holding apply to off-campus racially tinged student speech? Can a school discipline a student who posts
off-campus Snaps reenacting and mocking the victims of
police violence where those Snaps are not related to
school, not taken or posted on campus, do not overtly
threaten violence and do not target any specific individual,
yet provoke significant disruptions within the school?
Hard to tell. We promulgate a new constitutional rule
based on facts that do not require us to entertain hard
questions such as these.
The craft of judging has a restraining principle: Do
not decide today what can be decided tomorrow, for tomorrow it may not need to be decided. We twist that tenet
today by a wide-reaching holding for facts outside the
question my colleagues call. In J.S., despite a well-reasoned concurrence urging that Tinker not apply to offcampus student speech, J.S., 650 F.3d at 936–41 (Smith,
J.), our en banc decisions in both it and Layshock declined
to go that far. Yet a panel does so today with no more
compelling context than either en banc case. Our task is
to balance tolerance for expressive conduct with the need
for order in our schools. The test in Tinker—whether student speech reasonably “forecast[s] substantial
disruption of or material interference with school activities,” 393 U.S. at 514—is the law we applied en banc, and
it no doubt works here to rule in B.L.’s favor. Why go further until it is needed?
Hence, while I join the judgment in today’s case, I dissent from its holding.

49a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT FOR
THE MIDDLE DISTRICT OF PENNSYLVANIA
B.L., a minor, by and through
her father, LAWRENCE
LEVY, and her mother,
BETTY LOU LEVY,
Plaintiff,

NO. 3:17-CV-01734
(JUDGE CAPUTO)

v.
MAHANOY AREA SCHOOL
DISTRICT,
Defendant.
MEMORANDUM
This case raises the question of whether a public school
can lawfully remove a student from an extracurricular activity for her profanity, transmitted off school grounds on
a Saturday to fellow students. Plaintiff B.L., a student at
Mahanoy Area High School, was dismissed from the
cheerleading squad for uttering “fuck school, fuck softball,
fuck cheer, fuck everything” off school grounds on a Saturday. I hold that B.L.’s words were constitutionally
protected by the First Amendment.
Indeed, I granted B.L.’s motion for a preliminary injunction for this reason and suggested that holding
otherwise would “allow school children to serve as
Thought Police—reporting every profanity uttered—for

50a
the District.” B.L. by Levy v. Mahanoy Area Sch. Dist.,
289 F. Supp. 3d 607, 613 (M.D. Pa. 2017). The District now
proffers one Dr. Mussoline as an expert, and moves for
summary judgment on the ground that the undisputed evidence gathered since the preliminary injunction hearing
proves the District did not violate B.L.’s rights. B.L.
cross-moves for summary judgment, arguing just the opposite; B.L. also moves to oust Dr. Mussoline. All three
motions are presently before me. Because the undisputed
evidence shows the District violated B.L.’s rights, her motion for summary judgment will be granted. The District’s
motion will accordingly be denied, and B.L.’s motion to exclude the expert report and testimony of Dr. Mussoline
will be denied as moot.
I. Background
Both sides agree on the facts. The Mahanoy Area
School District is located in Mahanoy City, a small borough in Schuylkill County, Pennsylvania. (Doc. 40 at ¶ 5
(Defendant’s Statement of Undisputed Facts)). B.L. is a
junior at Mahanoy Area High School, which is a part of the
District. (Id. ¶ 2).
In her freshman year, B.L. joined the junior varsity
cheerleading squad led by Coaches Nicole LuchettaRump (a math teacher at the High School) and April Gnall
(a third-grade teacher in the District). (Id. ¶¶ 6-9). The
squad held tryouts for the next school year in May of
B.L.’s freshman year. (Id. ¶ 12). Before she could try out,
however, B.L. was required to agree to a number of rules
that would apply to her if she made the squad again. (Id.
¶¶ 16-23). These rules—the “Cheerleading Rules” or
“Rules”—state: “Please have respect for your school,
coaches, teachers, other cheerleaders and teams. Remember you are representing your school when at games,

51a
fundraisers, and other events. Good sportsmanship will
be enforced, this includes foul language and inappropriate
gestures.” (Id. ¶ 19 (the “Respect Provision”)). The Rules
also warn: “There will be no toleration of any negative information regarding cheerleading, cheerleaders, or
coaches placed on the internet.” (Id. ¶ 23 (the “Negative
Information Rule”)). Coaches Luchetta-Rump and Gnall
adopted these Rules from their predecessor, and did not
need the District’s permission to adopt or enforce them.
(Id. ¶¶ 15, 24, 45).
B.L. and her mother reviewed the Rules prior to tryouts, and signed a document acknowledging B.L. would be
bound by them. (Id. ¶ 18). Unfortunately for B.L., tryouts
did not go so well—she was placed on the junior varsity
squad again for her sophomore year. (Id. ¶ 34). And, to
add insult to injury, an incoming freshman made the varsity squad. (Id.¶ 35).
In frustration, B.L. took to Snapchat that Saturday.
(See id. ¶¶ 37, 40). (Snapchat is a social media application
for smartphones that allows users to send private text,
photo, and video messages to other users—but these messages are limited in duration, cannot be accessed from the
web, and can only be viewed temporarily, see B.L. by Levy
v. Mahanoy Area Sch. Dist., 289 F. Supp. 3d 607, 610 n.1
(M.D. Pa. 2017)). Posing in street clothes with a friend,
middle fingers raised, B.L. took a “selfie” at the Cocoa
Hut, a local store and student stomping ground. (See id.
¶¶ 37-40). On top of the photo, B.L. added the following
text: “fuck school fuck softball fuck cheer fuck everything.” (Id.). B.L. then posted the captioned photo—the
“Snap”—on her private Snapchat account, where it could
have been viewed briefly by about two-hundred and fifty
(250) of her friends. (Id. ¶¶ 37-42). She posted a follow-up

52a
Snap just after, reading: “Love how me and [my friend]
get told we need a year of jv before we make varsity but
that[] doesn’t matter to anyone else?” (Id. ¶ 41). Many of
B.L.’s friends on Snapchat are students at District
schools; some are fellow cheerleaders. (Id. ¶¶ 42-43).
One of those cheerleaders, Coach Gnall’s daughter,
came across the Snaps, took screen shots of them (as they
were not publicly viewable), and brought them to the
coaches’ attention. (Id. ¶ 43). Meanwhile, with the weekend now over, word of B.L.’s Snaps spread through the
school. (See id. ¶¶ 57-60). Several students, “both cheerleaders and non-cheerleaders[,] approached Coach
Luchetta-Rump to express their concerns that the Snaps
were inappropriate.” (Id. ¶ 59). “Students were visibly
upset and voiced their concerns to [Coach] LuchettaRump repeatedly for several days.” (Id. ¶ 60). Accordingly, “Coaches Gnall and Luchetta-Rump jointly decided
to suspend B.L. from the cheerleading team for one year
for violating the Cheerleading Rules by posting the offensive Snaps.” (Id. ¶ 44). Specifically, “B.L. was disciplined
for violating the Respect Provision and the Negative Information Rule of the Cheerleading Rules . . . .” (Id. ¶ 57).
Even though electronic squabbling amongst cheerleaders
at the High School “is a fairly typical occurrence,” the
coaches felt the need to enforce the Rules against B.L. “to
‘avoid chaos’ and maintain a ‘team-like environment.’” (Id.
¶¶ 55-56). “The cheerleading coaches would not have suspended B.L. from the team if her Snaps had not
referenced cheerleading,” though. (Id. ¶ 58).
B.L.’s father appealed to the School Board, but the
Board declined to get involved. (Id. ¶ 49-51). Accordingly,
B.L., through her parents, filed suit against the District
for declaratory and injunctive relief. (See Doc. 1; Doc. 33-

53a
1 (giving up her claim for damages)). B.L. contemporaneously filed a motion for a temporary restraining order and
preliminary injunction (Doc. 2); I granted the TRO pending resolution of the preliminary injunction motion (Doc.
5). After holding a hearing, I issued a preliminary injunction, finding that, among other things, B.L. was likely to
succeed on the merits. See B.L. by Levy v. Mahanoy Area
Sch. Dist., 289 F. Supp. 3d 607 (M.D. Pa. 2017). The District subsequently answered the complaint (Doc. 16),
discovery ensued, and both sides have moved for summary
judgment. (Docs. 33, 37). B.L. also moves to exclude the
expert report and testimony of Dr. Lawrence J. Mussoline, whom the District retained to opine on a number of
matters related to cheerleading, school discipline, and
sports teams. (Doc. 135).
All three motions have been fully briefed and are now
ripe for review.
II. Legal Standard
Summary judgment shall be granted “if the movant
shows that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a). “A court may grant a motion
for summary judgment if, after it considers all probative
materials of record, with inferences drawn in favor of the
non-moving party, the court is satisfied that there are no
genuine issues of material fact and the movant is entitled
to judgment as a matter of law.” Chavarriaga v. N.J.
Dep’t of Corr., 806 F.3d 210, 218 (3d Cir. 2015) (citing Celotex Corp. v. Catrett, 477 U.S. 317, 330 (1986); Brooks v.
Kyler, 204 F.3d 102, 105 n.5 (3d Cir. 2000)). “A fact is ‘material’ under Rule 56 if its existence or nonexistence might
impact the outcome of the suit under the applicable substantive law. A dispute over a material fact is ‘genuine’ if

54a
‘a reasonable jury could return a verdict for the nonmoving party.’” Santini v. Fuentes, 795 F.3d 410, 416 (3d Cir.
2015) (quoting Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 248 (1986)). “In determining whether the dispute is
genuine, the court’s function is not to weigh the evidence
or to determine the truth of the matter . . . .” American
Eagle Outfitters v. Lyle & Scott Ltd., 584 F.3d 575, 581 (3d
Cir. 2009) (citing Anderson, 477 U.S. at 248-49).
The moving party bears the initial burden to identify
“specific portions of the record that establish the absence
of a genuine issue of material fact.” Santini, 795 F.3d at
416 (citing Celotex, 477 U.S. at 323). If this burden is satisfied by the movant, the burden then “shifts to the
nonmoving party to go beyond the pleadings and ‘come
forward with specific facts showing that there is a genuine
issue for trial.’” Id. (quoting Matsushita Elec. Indus. Co.
v. Zenith Radio Corp., 475 U.S. 574, 587 (1986)). The nonmovant’s burden is not satisfied by “simply show[ing] that
there is some metaphysical doubt as to the material facts.”
Chavarriaga, 806 F.3d at 218 (quotation omitted).
Although the parties have filed cross-motions for summary judgment, this legal standard remains the same.
Auto-Owners Ins. Co. v. Stevens & Ricci, Inc., 835 F.3d
388, 401 (3d Cir. 2016). Normally, a court considers each
motion independently, Marciniak v. Prudential Fin. Ins.
Co. of Am., 184 F. App’x 266, 270 (3d Cir. 2006), and the
denial of one does not imply the granting of the other. Bacon v. Avis Budget Grp., Inc., No. CV165939MKJBC, 2018
WL 6492923, at *7 (D.N.J. Dec. 7 2018). But where, as
here, “review of [the] cross-motions reveals no genuine issue of material fact, then judgment may be entered in
favor of the party deserving of judgment in light of the law
and undisputed facts.” Transguard Ins. Co. of Am., Inc.

55a
v. Hinchey, 464 F. Supp. 2d 425, 430 (M.D. Pa. 2006) (citing Iberia Foods Corp. v. Romeo, 150 F.3d 298, 302 (3d
Cir. 1998)).
III. Discussion
A.
Courts have discussed the landscape of First Amendment law in public schools at length. See, e.g., Layshock
ex rel. Layshock v. Hermitage Sch. Dist., 650 F.3d 205,
211-14 (3d Cir. 2011). A brief discussion of the major
school speech precedents suffices here.
The Supreme Court established in the landmark case
of Tinker v. Des Moines Independent Community School
District that public school students do not shed their
speech rights at the “schoolhouse gate.” 393 U.S. 503, 506
(1969). The plaintiffs in that case, students who wore
black armbands to protest the Vietnam War, were suspended by their school after ignoring its ban on the
armbands. Id. at 504. The Court held the school violated
the students’ First Amendment rights because the students’ expression did not “materially and substantially
disrupt the work and discipline of the school,” and because
school officials did not reasonably forecast such disruption. Id. at 513. Tinker thus sets the baseline for what
student speech is protected: anything that does not, or in
the view of reasonable school officials, will not cause material and substantial disruption at school. Later cases set
out exceptions to this broad dictate.
The first exception was created in Bethel School District No. 403 v. Fraser, 478 U.S. 675 (1986). In Fraser, a
student gave a speech laden with sexual innuendo at a
school assembly. Id. at 678. The school suspended the
student, and the Supreme Court upheld the suspension on

56a
the ground that a school may punish students for their “offensively lewd,” “obscene,” “indecent,” and “vulgar”
speech without finding that substantial disruption would
occur. Id. at 685. The Court noted that schools have a
duty to “inculcate the habits and manners of civility,” id.
at 681 (quotation omitted), and so “[t]he First Amendment
does not prevent . . . school officials from determining that
to permit a vulgar and lewd speech . . . would undermine
the school’s basic educational mission,” id. at 685. Justices
Brennan and Marshall would have instead relied on the
rule announced in Tinker, although they disagreed as to
whether on the facts of the case the school could have reasonably forecast substantial disruption. Compare id. at
687-90 (Brennan, J., concurring in the judgment), with id.
at 690 (Marshall, J., dissenting).
Hazelwood School District v. Kuhlmeier, 484 U.S. 260
(1988) established the next Tinker exception.
In
Kuhlmeier, the Court held that schools may “exercis[e]
editorial control over the style and content of student
speech in school-sponsored expressive activities so long as
[its] actions are reasonably related to legitimate pedagogical concerns.” Id. at 273. Under the Kuhlmeier
exception, schools “are entitled to exercise greater control” over “school-sponsored . . . expressive activities that
students, parents, and members of the public might reasonably believe to bear the imprimatur of the school.” Id.
at 270-21. Justice Brennan, joined by Justices Marshall
and Blackmun, criticized the majority opinion for “abandoning Tinker,” creating a new “distinction between
personal and school-sponsored speech,” and relying on
“the school’s pedagogical message” as a “constitutionally
sufficient justification for the suppression of student
speech.” Id. at 280, 282 (Brennan, J., dissenting). It appears that of the Court’s student speech precedents, only

57a
Kuhlmeier holds a court can balance a student’s speech
against “legitimate pedagogical concerns;” however, this
balancing is limited to situations in which a reasonable observer would conclude the speech is essentially that of the
school itself. See Rosenberger v. Rector & Visitors of
Univ. of Va., 515 U.S. 819, 834 (1995).
The final exception to Tinker was announced in Morse
v. Frederick, 551 U.S. 393 (2007). The student in Morse,
“[a]t a school-sanctioned and school-supervised event,”
held up a banner that the high school principal “reasonably regarded as promoting illegal drug use.” Id. at 396.
The principal ordered the banner be taken down, and the
student who refused to comply was suspended. Id. The
Court, upholding the suspension, held “that schools may
take steps to safeguard those entrusted to their care from
speech that can reasonably be regarded as encouraging illegal drug use.” Id. Justice Alito concurred, but “on the
understanding that the [majority] opinion does not hold
that the special characteristics of the public schools necessarily justify any other speech restrictions.” Id. at 423
(Alito, J., concurring). In his concurrence, Justice Alito
also noted that the majority opinion “does not endorse the
broad argument . . . that the First Amendment permits
public school officials to censor any student speech that
interferes with a school’s ‘educational mission.’” Id. (quotation omitted).
That argument could “easily be
manipulated in dangerous ways,” and “would give public
school authorities a license to suppress speech . . . based
on disagreement with the viewpoint expressed.” Id.
Under the Supreme Court’s student speech precedents, there are thus four rules: (1) “Under Fraser, a
school may categorically prohibit lewd, vulgar or profane

58a
language[;]” (2) “Under [Kuhlmeier], a school may regulate school-sponsored speech . . . on the basis of any
legitimate pedagogical concern[;]” (3) Under Morse, a
school may categorically prohibit speech that can reasonably be regarded as encouraging illegal drug use; and (4)
“Speech falling outside of these categories is subject to
Tinker’s general rule: it may be regulated only if it would
substantially disrupt school operations or interfere with
the right of others.” Saxe v. State Coll. Area Sch. Dist.,
240 F.3d 200, 214 (3d Cir. 2001) (Alito, J.).
The Third Circuit has provided further clarification
with regard to student speech in the digital era. In J.S. ex
rel. Snyder v. Blue Mountain School District and
Layshock ex rel. Layshock v. Hermitage School District,
students were suspended for creating websites that lampooned school officials using vulgar language. See J.S. ex
rel. Snyder, 650 F.3d 915, 920-22 (3d Cir. 2011) (en banc);
Layshock ex rel. Layshock, 650 F.3d 205, 208-10 (3d Cir.
2011) (en banc). In decisions handed down the same day,
the Third Circuit held that (1) student speech uttered offcampus is not rendered “on-campus speech” simply because it eventually reaches inside the school; (2) Fraser is
inapplicable to off-campus speech; and (3) Tinker might
apply to off-campus speech. See J.S. ex rel. Snyder, 650
F.3d at 926, 930-32; Layshock ex rel. Layshock, 650 F.3d
at 215-19.
With this background in mind, I turn to the applicable
legal framework and the parties’ arguments. It is not
clear if student speech claims are meant to be addressed
under the three-step First Amendment retaliation framework. Compare Monn v. Gettsyburg Area Sch. Dist., 553
F. App’x 120, 122 (3d Cir. 2014) (applying the First
Amendment retaliation framework to students’ claims of

59a
school officials’ punishment for speech) and Pinard v.
Clatskanie Sch. Dist. 6J, 467 F.3d 755, 770 (9th Cir. 2006)
(same), with J.S. ex rel. Snyder v. Blue Mountain Sch.
Dist., 650 F.3d 915, 928-33 (3d Cir. 2011) (en banc) (analyzing the student’s speech under Tinker and Fraser
without reference to the First Amendment retaliation
framework). I assume that they are—with the caveat that
Tinker places the burden on the school to show its action
was constitutionally permissible. Tinker v. Des Moines
Indep. Cmty. Sch. Dist., 393 U.S. 503, 509 (1969) (“[the
State] must be able to show that its action was caused by
something more than a mere desire” to suppress unpopular speech); see United States v. Playboy Entm’t Grp.,
Inc., 529 U.S. 803, 816-17 (2000) (citing Tinker for the
proposition that “[w]hen the Government restricts speech,
the Government bears the burden of proving the constitutionality of its actions”). Under the First Amendment
retaliation framework, the student’s speech must first be
“protected.” Mitchell v. Horn, 318 F.3d 523, 530 (3d Cir.
2003). Next, the school must have punished her, WalkerSerrano ex rel. Walker v. Leonard, 325 F.3d 412, 419 (3d
Cir. 2003), or took “an adverse action . . . sufficient to deter a person of ordinary firmness from exercising h[er
constitutional rights,]” Mitchell, 318 F.3d at 530 (quotation omitted). Finally, there must be a “causal link”
between the student’s protected speech and the school’s
punishment or sufficiently adverse action. Rauser v.
Horn, 241 F.3d 330, 333 (3d Cir. 2001) (quotation omitted).
Although the parties have not referenced this standard
in their briefing, their arguments are primarily focused on
the first step—that is, whether B.L.’s speech was protected. If, on the undisputed facts, B.L.’s speech was
unprotected, then the District’s motion for summary judgment must be granted; however, if B.L.’s speech was

60a
protected, then her motion for summary judgment will
prevail.
B.
I need to clear away some argumentative brush before
getting to the root of the dispute, though. The District
first argues that B.L. waived her First Amendment rights
when she joined the cheerleading squad. (Doc. 55 at 1012). The District maintains that both B.L. and her mother
voluntarily waived B.L.’s First Amendment rights by
signing the “Application for Cheerleading Tryouts”
(which conditioned participation on abiding by the Cheerleading Rules). (Id.). B.L. responds that there is no
evidence to support a finding of waiver, and regardless,
the District cannot condition extracurricular participation
on a waiver of constitutional rights. (Doc. 49 at 27-30).
The District has not produced sufficient evidence that
B.L. waived her speech rights. Courts must “indulge
every reasonable presumption against waiver of fundamental constitutional rights.” Johnson v. Zerbst, 304 U.S.
458, 464 (1938) (quotation omitted). The voluntary, knowing, and intelligent waiver of one’s First Amendment
rights must be shown by “clear and compelling” evidence.
Curtis Publ’g Co. v. Butts, 388 U.S. 130, 145 (1967). “Such
volition and understanding are . . . present[] where the
parties to the contract have bargaining equality and have
negotiated the terms of the contract, and where the waiving party is advised by competent counsel and has
engaged in other contract negotiations.” Erie Telecomms., Inc. v. City of Erie, 853 F.2d 1084, 1096 (3d Cir.
1988). But see Yoder v. Univ. of Louisville, 526 F. App’x
537, 546-47 (6th Cir. 2013) (granting qualified immunity to
the defendant based on a looser waiver standard). There
is no evidence that any of these factors is present here:

61a
neither B.L. nor her mother had bargaining equality with
the coaches or the school; the Cheerleading Rules were
not subject to negotiation; and B.L. and her mother were
not represented by counsel when they agreed B.L. would
abide by the Rules. Additionally, conditioning extracurricular participation on a waiver of a constitutional right is
coercive. See Moran v. Burbine, 475 U.S. 412, 421 (1986)
(waiver is involuntary if it is coerced); cf. Capua v. City of
Plainfield, 643 F. Supp. 1507, 1521 (D.N.J. 1986) (conditioning continued employment on agreeing to urine
testing “coerced a waiver of any rights” employees had).
B.L. did not, therefore, waive her First Amendment
rights.
Next, the District contends that it cannot be liable because the coaches’ actions are not vicariously attributable
to it, see Monell v. Dep’t of Soc. Servs. of City of New York,
436 U.S. 658, 690-91 (1978). (Doc. 51 at 23-26). B.L. has
not shown, the District argues, that, consistent with the
rule established in Monell, the District “implement[ed] an
official policy, practice or custom” that violated B.L.’s constitutional rights. Losch v. Borough of Parkesburg, Pa.,
736 F.2d 903, 910 (3d Cir. 1984) (citation omitted). This
argument can be dismissed out of hand because the District admits it “approved or ratified” the Cheerleading
Rules pursuant to which B.L. was punished, (Doc. 16 at ¶
18), and delegated its authority over the cheerleading
team to Coaches Luchetta-Rump and Gnall, (see, e.g., Doc.
40 at ¶ 45 (“The cheerleading coaches did not need—and
did not receive—authorization from [the District] to suspend B.L. from the team.”); id ¶ 51 (“The School Board
decided that it should not get involved in the minutiae of
extracurricular activities, and that coaches must be permitted to hold students accountable for their actions.”)).
See Seamons v. Snow, 206 F.3d 1021, 1029 (10th Cir. 2000)

62a
(“[T]he record indicates that Coach Snow, and only Coach
Snow, was vested by the school district with the authority
to make final decisions regarding membership on the . . .
football team. Because of this delegation of authority, the
school district can be held liable for Coach Snow’s actions
on team membership.” (citing Pembaur v. City of Cincinnati, 475 U.S. 469, 483 (1986))).
Finally, the District argues that because students have
no constitutional right to participate in extracurricular activities like cheerleading, B.L.’s mere removal from the
squad could not have violated her rights. (Doc. 38 at 1620; Doc. 55 at 4-7). In response, B.L. argues that whether
she has a constitutional right to participate in extracurricular activities or whether her coaches’ sanction was “harsh
enough” is irrelevant to First Amendment analysis. (Doc.
34 at 19-20; Doc. 49 at 23).
I agree with B.L. What the District’s argument does
is put the constitutional cart before the horse. The court
in Johnson v. Cache County School District (which the
District relies on) made the same mistake. 323 F. Supp.
3d 1301, 1321 (D. Utah 2018) (“The court finds the cases
recognizing the distinction between school suspension and
participation in an extracurricular activity to be more persuasive given that there is no constitutional right to
participate in an extracurricular activity.”). The issue
with this reasoning, which assumes all student athlete
speech is ipso facto less protected, see Lowery v. Euverard, 497 F.3d 584, 605 (6th Cir. 2007) (Gilman, J.,
concurring in the judgment) is two-fold: it muddies the
First Amendment analysis, and conflates it with Due Process analysis.
As to the first point, the threshold inquiry under standard First Amendment analysis is whether speech is

63a
protected—considering the speech at issue and the context in which it was uttered. See Rauser v. Horn, 241 F.3d
330, 333 (3d Cir. 2001). Take Tinker, for example. Student
speech that would not materially disrupt school or invade
the rights of others is protected. Tinker v. Des Moines
Indep. Cmty. Sch. Dist., 393 U.S. 503, 513-14 (1969). That
standard does not ask courts to consider the punishment
the school doled out or its effect on independent constitutional interests in determining whether student speech
was protected in the first place. See id. Contra Lowery v.
Euverard, 497 F.3d 584, 588 (6th Cir. 2007) (“The Court
must consider the content and context of the speech, and
the nature of the school’s response.” (emphasis added)).
Whether a school’s chosen punishment was constitutionally impermissible is a separate question, with a hair
trigger for liability. See Walker-Serrano ex rel. Walker v.
Leonard, 325 F.3d 412, 419 (3d Cir. 2003) (a school cannot
engage in “punishment for expression, a significant pattern of concrete suppression, or some other form of clear
suppression of the expression of [students]”); Rauser, 241
F.3d at 333 (retaliation is actionable if it is “sufficient to
deter a person of ordinary firmness from exercising his
[constitutional] rights” (quotation omitted)); see also Rutan v. Republican Party of Ill., 497 U.S. 62, 76 n.8 (1990)
(“[T]he First Amendment . . . protects state employees . .
. from even an act of retaliation as trivial as failing to hold
a birthday party for a public employee . . . when intended
to punish her for exercising her free speech rights.” (quotation omitted)). And whether the government, in
retaliation, revoked something the speaker was not constitutionally entitled to is irrelevant to either question.
Rauser, 241 F.3d at 333.
That is the second point. First Amendment analysis is
distinct from Due Process analysis under the Fourteenth

64a
Amendment, which does measure constitutional interests
against government actions, see Isbell v. Bellino, 983 F.
Supp. 2d 492, 509-10 (M.D. Pa. 2012). As far as the First
Amendment is concerned, though, that there is no general
constitutional right to cheerlead, see Blasi v. Pen Argyl
Area Sch. Dist., 512 F. App’x 173, 175 (3d Cir. 2013), is just
a truism. Students do not shed their First Amendment
rights at the schoolhouse gate despite having no general
constitutional right to public education, either. Plyler v.
Doe, 457 U.S. 202, 221 (1982); Tinker v. Des Moines Indep.
Cmty. Sch. Dist., 393 U.S. 503, 507 (1969). The right a
public school infringes by punishing a student for protected speech is not the right to education or to play a
sport, it is the right to freedom of speech. See Tinker, 393
U.S. at 511-14; T.V. ex rel. B.V. v. Smith-Green Cmty. Sch.
Corp., 807 F. Supp. 2d 767, 780 (N.D. Ind. 2011). By analogy, a school district violates the Constitution by
discriminating against applicants for teaching positions on
the basis of race, Hazlewood Sch. Dist. v. United States,
433 U.S. 299, 309 n.15 (1977), even though applicants do
not have a constitutional right to or a property interest in
a government job, see Bd. of Regents of State Colls. v.
Roth, 408 U.S. 564, 588 (1972) (Marshall, J., dissenting).
The constitutional problem in both cases is not the government’s actions themselves, but the reasons why they were
taken. See Mt. Healthy City Sch. Dist. Bd. of Educ. v.
Doyle, 429 U.S. 274, 283-84 (1977); Perry v. Sindermann,
408 U.S. 593, 597 (1972).
Take Doninger v. Niehoff, 527 F.3d 41 (2d Cir. 2008),
for example, which the District relies on for the proposition that “exclusion from extracurricular activities does
not require the same scrutiny as a suspension or expulsion
from school.” (Doc. 55 at 7). Doninger explains (albeit indirectly) the distinction between First Amendment and

65a
Due Process claims in this context. The Doninger court,
after holding the student’s speech likely unprotected under Tinker, noted that “given the posture of th[e] case,” it
“ha[d] no occasion to consider whether a different, more
serious consequence than disqualification from student office would raise constitutional concerns.” Id. at 53
(emphasis added). For that proposition, Doninger cited
Wisniewski v. Board of Education of the Weedsport Central School District, which in turn declined to decide
whether the First Amendment or Fourteenth Amendment would apply to a “distinct challenge to the extent of
the [school’s] discipline” for a student’s speech. 494 F.3d
34, 40 (2d Cir. 2007) (citing Graham v. Connor, 490 U.S.
386, 395 (1989)). In other words, if a student challenges
her school’s punishment as excessive, the rubric of Due
Process might be more appropriate in resolving that
claim. In that case, it would be relevant that the law recognizes a student’s property interest in public education
but not in participation in extracurricular activities. See,
e.g., Dominic J. v. Wyoming Valley W. High Sch., 362 F.
Supp. 2d 560, 572 (M.D. Pa. 2005). But just as in Doninger, B.L. is not mounting that sort of challenge, so First
Amendment standards apply.
And the Third Circuit has made the applicable standard clear: a public school’s “punishment” for a student’s
protected expression opens the courthouse doors.
Walker-Serrano ex rel. Walker v. Leonard, 325 F.3d 412,
419 (3d Cir. 2003). Accordingly, students have been found
likely to succeed in First Amendment challenges to seemingly minor discipline. See, e.g., K.A. ex rel. Ayers v.
Pocono Mountain Sch. Dist., 710 F.3d 99, 102 (3d Cir.
2013) (upholding preliminary injunction against school
that denied the plaintiff’s request to “distribut[e] invitations to her classmates to a Christmas party at her

66a
church”). If telling a student “Don’t distribute invitations”
can be unconstitutional, surely kicking a student off the
team can be too—as the Ninth and Tenth Circuits implicitly hold. See Pinard v. Clatskanie Sch. Dist. 6J, 467 F.3d
755, 771 (9th Cir. 2006) (remanding for a determination as
to whether the coach’s “decision to suspend [the plaintiffs]
permanently from the team” was motivated by the plaintiffs’ protected speech); Seamons v. Snow, 206 F.3d 1021,
1028 (10th Cir. 2000) (concluding plaintiff produced
enough evidence to support his First Amendment claim
against his coach, who suspended then dismissed him from
the football team).
Contrary to what the District suggests, courts have
not held that mere exclusion from an extracurricular activity reduces or fails to raise constitutional concerns. The
dicta from Doninger and Wisniewski regarding Due Process do not imply a school’s punishment must exceed
removal from an extracurricular activity in order to offend
the First Amendment. In fact, the Second Circuit expressly rejected that implication later in the Doninger
litigation. Doninger v. Niehoff, 642 F.3d 334, 351 (2d Cir.
2011) (“To be clear, we do not conclude in any way that
school administrators are immune from First Amendment
scrutiny when they react to student speech by limiting students’ participation in extracurricular activities.”). Even
the Sixth and Eighth Circuits, while noting that dismissal
from an extracurricular activity does not impact a student’s “regular education,” did not go so far as holding
such dismissal unactionable. See Lowery v. Euverard, 497
F.3d 584, 600-01 (6th Cir. 2007) (holding the plaintiffs’
speech unprotected under Tinker); Wildman ex rel. Wildman v. Marshalltown Sch. Dist., 249 F.3d 768, 772 (8th
Cir. 2001) (holding “no basis for a claim of a violation of

67a
free speech” existed where the plaintiff’s speech was unprotected under Tinker or Fraser and where the coach
dismissed the plaintiff for refusing to apologize for that
unprotected speech). To the extent Lowery or Wildman
could be read to hold a dismissed athlete’s rights are not
infringed because she may still attend class and is free to
continue her protected speech elsewhere—which is a
stretch—that reading is inconsistent with First Amendment principles. Compare Ward v. Rock Against Racism,
491 U.S. 781, 791 (1989) (whether “ample alternative channels for communication” exist despite a reasonable
government time, place, or manner restriction is relevant
for forum analysis), with K.A. ex rel. Ayers v. Pocono
Mountain Sch. Dist., 710 F.3d 99, 112 (3d Cir. 2013) (forum analysis is inapplicable in student speech cases
governed by Tinker); see id. at 102 (a student prohibited
from distributing invitations in school, though not excluded from class and free to distribute invitations
elsewhere, was still likely to succeed on a First Amendment claim); see also Mt. Healthy City Sch. Dist. Bd. of
Educ. v. Doyle, 429 U.S. 274, 283-84 (1977) (a public school
may not fire a teacher “by reason of his exercise of constitutionally protected First Amendment freedoms,” even
though he is free to continue speaking and seek employment elsewhere).
In sum, the fact that this case involves cheerleading is
only appropriately considered in determining whether
B.L.’s speech was protected. See Doninger v. Niehoff, 527
F.3d 41, 52 (2d Cir. 2008); T.V. ex rel. B.V. v. Smith-Green
Cmty. Sch. Corp., 807 F. Supp. 2d 767, 781 (N.D. Ind.
2011). “By choosing to ‘go out for the team,’” student athletes like B.L. do “voluntarily subject themselves to a
degree of regulation even higher than that imposed on students generally.” Vernonia Sch. Dist. 47J v. Acton, 515

68a
U.S. 646, 657 (1995). But “players do not completely waive
their rights when they join a team[,]” Lowery v. Euverard,
497 F.3d 584, 600 (6th Cir. 2007), as the First Amendment
also reaches “the playing field,” Tinker v. Des Moines Indep. Cmty. Sch. Dist., 393 U.S. 503, 512 (1969).
C.
On to the substance. The District argues its punishment was permissible (and, conversely, that B.L.’s speech
was unprotected) for three reasons: first, as a threshold
matter, schools can punish students for off-campus
speech, (Doc. 38 at 11-12); second, Tinker allows schools
to punish student speech that has the potential to disrupt
an athletic team, and speech that, in the absence of punishment, would likely result in “substantial disruption of
the [school’s] educational mission,” (id. at 15; Doc. 51 at
12-17); and third, Fraser permitted the District’s discipline, (Doc. 38 at 21-26). B.L. counters that her speech
caused no substantial disruption and was thus protected
under Tinker, and that Fraser cannot apply to off-campus
speech. (Doc. 49 at 12-23).
The District’s concession that B.L.’s speech occurred
off-campus is all but fatal. The Third Circuit held in J.S.
ex rel. Snyder v. Blue Mountain School District that a
school cannot punish a student for off-campus speech that
is merely profane. 650 F.3d 915, 932-33 (3d Cir. 2011) (en
banc). The Fraser exception to Tinker, the Third Circuit
explained, “cannot be extended to justify a school’s punishment . . . for use of profane language outside the school,
during non-school hours.” Id. at 932 (footnote omitted).
In so holding, the Third Circuit rejected the school’s argument that the student’s speech was punishable because it
was “lewd, vulgar, and offensive [and] had an effect on the
school and the educational mission of the District.” Id.

69a
(emphasis added).
J.S. ex rel. Snyder thus forecloses nearly all the District’s arguments. Fraser cannot justify its punishment.
B.L. “spoke,” through Snapchat, in street clothes, at the
Cocoa Hut, on a Saturday; the District does not and cannot claim that constitutes on-campus speech. Nor can
Tinker justify the District’s punishment, even if the District rephrases its concern as “disruption of the
educational mission” of the team or the school. As Justice
Brennan made clear in his Kuhlmeier dissent, Tinker is
not concerned with the disruption of a school’s educational
mission. See Hazelwood Sch. Dist. v. Kuhlmeier, 484 U.S.
260, 280-82 (1988) (Brennan, J., dissenting). Moreover, a
school cannot circumvent Tinker, Fraser, and J.S. ex rel.
Snyder by simply defining its educational mission in a way
that prohibits off-campus vulgarity. See J.S. ex rel.
Snyder, 650 F.3d at 932 (implicitly rejecting this argument); see also Morse v. Frederick, 551 U.S. 393, 405
(2007) (“Had Fraser delivered the same [lewd] speech in a
public forum outside the school context, it would have been
protected.”); id. at 423 (Alito, J., concurring) (school officials cannot simply “censor any student speech that
interferes with a school’s ‘educational mission’”). If that
were the law, public schools would “possess absolute authority over their students” and become “enclaves of
totalitarianism.” Tinker v. Des Moines Indep. Cmty. Sch.
Dist., 393 U.S. 503, 511 (1969); see J.S. ex rel. Snyder, 650
F.3d at 933 (“Under this standard, two students can be
punished for using a vulgar remark to speak about their
teacher at a private party, if another student overhears
the remark, reports it to the school authorities, and the
school authorities find the remark ‘offensive.’”); Layshock
ex rel. Layshock v. Hermitage Sch. Dist., 650 F.3d 205, 216

70a
(3d Cir. 2011) (en banc) (“It would be unseemly and dangerous precedent to allow the state, in the guise of school
authorities, to reach into a child’s home and control his/her
actions there to the same extent it can control that child
when he/she participates in school sponsored activities.”);
B.L. by Levy v. Mahanoy Area Sch. Dist., 289 F. Supp. 3d
607, 614 (M.D. Pa. 2018) (“school children” may not “serve
as Thought Police—reporting every profanity uttered—
for the District”). Therefore, neither Tinker (as uniquely
interpreted by the District) nor Fraser can justify B.L.’s
punishment.
That this is a cheerleading case does not change the
result. Yes, context matters. Student athletes can expect
a greater degree of regulation than students generally.
Vernonia Sch. Dist. 47J v. Acton, 515 U.S. 646, 657 (1995).
And “[t]he narrower goals of an athletic team . . . are not
always consistent with the freewheeling exchange of views
that might be appropriate in a classroom debate.” Blasi
v. Pen Argyl Area Sch. Dist., 512 F. App’x 173, 175 (3d Cir.
2013); see Dambrot v. Cent. Mich. Univ., 55 F.3d 1177,
1190 (6th Cir. 1995) (“The plays and strategies are seldom
up for debate.”). Consequently, the same speech that is
protected in the classroom might not be on the playing
field. Compare Layshock ex rel. Layshock, 650 F.3d at
208-09, 219 (online, off-campus criticism of school principal
protected), with Lowery v. Euverard, 497 F.3d 584, 58586, 600-01 (6th Cir. 2007) (plaintiffs’ petition criticizing
their coach, apparently created off-campus, not protected).
But there is nothing unique about athletics that would
justify a broader application of Tinker or Fraser to a student athlete’s off-the-field profanity. For one, “[t]he

71a
examples given by the Court in Vernonia of increased regulation over student-athletes” do not support “similar
restriction[s] on free-speech rights,” Lowery, 497 F.3d at
605 (Gilman, J., concurring)—especially restrictions on
speech uttered beyond the coach’s bailiwick. More importantly, however, even though “[e]xecution of the
coach’s will is paramount,” Dambrot, 55 F.3d at 1190, punishing speech that would not undermine the coach’s will or
the team’s functioning serves no legitimate purpose. See
Seamons v. Snow, 206 F.3d 1021, 1030 (10th Cir. 2000)
(“[C]oaches may not penalize players for engaging in
peaceful speech activity which does not create substantial
disorder, materially disrupt class work, or invade the
rights of others.”); cf. Tinker v. Des Moines Indep. Cmty.
Sch. Dist., 393 U.S. 503, 514 (1969); Blasi v. Pen Argyl
Area Sch. Dist., 512 F. App’x 173, 175 (3d Cir. 2013)
(“School officials have a legitimate interest in affording
student athletes ‘an educational environment conducive to
learning team unity and sportsmanship and free from disruptions that could hurt or stray the cohesiveness of the
team.’” (quoting the school district’s brief in Wildman ex
rel. Wildman v. Marshalltown Sch. Dist., 249 F.3d 768,
771 (8th Cir. 2001))). The interest that a school or coach
has in running a team does not extend to off-the-field
speech that, although unliked, is unlikely to create disorder on the field. Cf. Flaherty v. Keystone Oaks Sch. Dist.,
247 F. Supp. 2d 698, 704 (W.D. Pa. 2003) (“While [the
school principal] believes that he can discipline a student
[athlete] for bringing ‘disrespect, negative publicity, [and]
negative attention to our school and to our volleyball
team,’ this is simply not sufficient to rise to the level of
‘substantial disruption’ under Tinker.”); Killion v. Franklin Reg’l Sch. Dist., 136 F. Supp. 2d 446, 448-49, 455 (W.D.
Pa. 2001) (student athlete’s online criticism of his school’s

72a
athletic director was protected because, although “upsetting” to the athletic director, the speech was not
threatening and led to no actual disruption). Nor does that
interest encompass discipline for discipline’s sake, as the
District suggests. See Killion, 136 F. Supp. 2d at 456 (“We
cannot accept, without more, that the childish and boorish
antics of a minor could impair the administrators’ abilities
to discipline students and maintain control.”); Klein v.
Smith, 635 F. Supp. 1440, 1442 n.4 (D. Me. 1986) (“[T]he
future course of the administration of discipline [will not]
dissolve, willy-nilly, in the face of the digital posturing of
[a] splenetic, bad-mannered little boy.”). High school athletics are not reserved for the popular and the unfailingly
polite.
On the other hand, a coach would have a legitimate interest in regulating student athlete speech that bears the
imprimatur of the team or the school. See Hazelwood Sch.
Dist. v. Kuhlmeier, 484 U.S. 260, 271-73 (1988). It is unclear to me, though, how a student athlete’s off-the-field
speech bears such an imprimatur, or how athletics constitute the sort of “vehicle[s] of student expression”
Kuhlmeier was concerned with. See id. at 273. To the extent the District argues Kuhlmeier justifies its discipline
because profanity conflicts with the coaches’ legitimate
pedagogical concerns, the District has not produced any
evidence that B.L.’s speech bore the imprimatur of the
school or the squad, or that a reasonable observer would
so conclude. A passing reference to cheerleading on B.L.’s
private social media account does not equate to an imprimatur. Cf. Morse v. Frederick, 551 U.S. 393, 405 (2007)
(“Kuhlmeier does not control this case because no one
would reasonably believe that Frederick’s banner [which
read ‘BONG HiTS 4 JESUS’] bore the school’s imprimatur.”).

73a
The District is thus left to rely on Tinker (as it is normally applied), but it has not shown that B.L.’s speech
created any substantial disorder or likelihood thereof.
The most it can muster is “student concerns” over B.L.’s
Snaps and an admittedly brief disruption of Coach Luchetta-Rump’s math class, even though squabbling
amongst squad members is a “fairly typical occurrence.”
(See Doc. 40 at ¶¶ 56, 59, 60; Doc. 40-13 at 59:23-25; 60:110). Such “general rumblings” do not amount to substantial disruption. J.S. ex rel. Snyder v. Blue Mountain Sch.
Dist., 650 F.3d 915, 922-23 (3d Cir. 2011) (en banc); see
B.H. v. Easton Area Sch. Dist., 725 F.3d 293, 321-22 (3d
Cir. 2013) (en banc) (“Student expression may not be suppressed simply because it gives rise to some slight, easily
overlooked disruption[.]”).
The coaches did not reasonably predict any substantial
disruption, either. True, Coach Luchetta-Rump raised
the specter of potential “chaos.” (Doc. 40-13 at 32:4-22).
But her understanding of “chaos” is at odds with the “substantial disruption” standard. The only prior example of
“chaos” Coach Luchetta-Rump could give (which again,
she described as a “fairly typical occurrence”) was a situation where one cheerleader texted another “something
mean,” so she spoke with both of them to “put the fire out”
without resorting to punishment. (Id. at 32:4-22). And the
only other time the “Negative Information Rule” was enforced was against Coach Gnall’s own daughter, who was
suspended from a few games for speaking ill of a rival
school’s cheerleading uniforms online—without any finding of actual or likely disruption. (Id. at 30:9-25; 31:1-19).
Thus, even viewing Coach Luchetta-Rump’s talismanic incantation of chaos in the light most favorable to the
District, Tinker remains unsatisfied. “Undifferentiated

74a
fear or remote apprehension of disturbance” does not suffice. Sypniewski v. Warren Hills Reg’l Bd. of Educ., 307
F.3d 243, 257 (3d Cir. 2002) (“It may be argued the school
was entitled to conclude the T-shirt was likely to lead to
disruption because [plaintiff’s] wearing of the [“redneck”]
shirt amounted to a promotion of values consistent with
the items and activities that had caused racial unrest [in
the past.] Again, mere association is not enough.”); cf.
Saxe v. State Coll. Area Sch. Dist., 240 F.3d 200, 212 (3d
Cir. 2001) (“[I]f a school can point to a well-founded expectation of disruption—especially one based on past
incidents arising out of similar speech—the restriction
may pass constitutional muster.”). The vague similarity of
B.L.’s Snaps to speech that caused little disruption in the
past is no ground for predicting substantial disruption in
the future. Moreover, Coach Luchetta-Rump testified, at
both the preliminary injunction hearing and at her deposition, that she punished B.L. for profanely referencing
cheerleading, not because of any possibility of disruption.
(See Doc. 40-13 at 47:2-11; 53:10-24; 62:8-11). She would
have punished B.L.—under the same Rules—if B.L.’s
Snap read: “Cheerleading is fucking awesome.” (Id. at
47:7-11). The District cannot sidestep these admissions
and have me theorize what a reasonable coach could have
concluded about B.L.’s speech. B.L.’s mere off-campus
profanity is what upset Coach Luchetta-Rump, not the potential for chaos about which the District’s evidence, at
best, raises “metaphysical doubt.” Chavarriaga v. N.J.
Dep’t of Corr., 806 F.3d 210 (3d Cir. 2015) (quotation omitted).
All of this discussion can be distilled into a single point:
Coaches cannot punish students for what they say off the
field if that speech fails to satisfy the Tinker or Kuhlmeier
standards. See Tinker, 393 U.S. at 514; Kuhlmeier, 484

75a
U.S. at 273. Even then, whether Tinker applies to speech
uttered beyond the schoolhouse gate is an open question.
See J.S. ex rel. Snyder v. Blue Mountain Sch. Dist., 650
F.3d 915, 926 (3d Cir. 2011) (en banc) (assuming without
deciding that Tinker applies to off-campus speech); id. at
936 (Smith, J., concurring) (“[T]he First Amendment protects students engaging in off-campus speech to the same
extent it protects speech by citizens in the community at
large.”). I need not weigh in on that question, though. The
undisputed evidence shows that neither of these standards has been met, so B.L.’s speech was protected.
Accordingly, the District violated B.L.’s rights when
Coach Luchetta-Rump dismissed her from the cheerleading squad. And because B.L. concedes all the relief she
seeks can be granted on this basis alone, I decline to address her alternative arguments regarding the
Cheerleading Rules’ vagueness or viewpoint discrimination. (Doc. 53 at 16).
D.
That leaves Dr. Mussoline. B.L. raises a panoply of
reasons why Dr. Mussoline should be excluded from this
case. (See Doc. 36). But the fact is that Dr. Mussoline’s
testimony and report would not save the District from
summary judgment even if I had considered it. The District asked Dr. Mussoline to provide his opinions on
immaterial matters. (See Doc. 36-1 at 2). For example,
Dr. Mussoline was asked to opine on “how communities
view cheer squads in general . . . [,]” “the reasonableness
of the [Cheerleading Rules,]” and “how the conduct in
which B.L. displayed [sic] impacts the interscholastic nature of sportsmanship and team bonds in a sport like
cheerleading[.]” (Id.). Again, Coach Luchetta-Rump admitted she punished B.L. for off-campus profanity, in

76a
violation of the Constitution. Nothing Dr. Mussoline could
say changes that. B.L.’s motion to exclude Dr. Mussoline
will therefore be denied as moot. See Logory v. Cty. of
Susquehanna, No. 3:09-CV-1448, 2013 WL 5201571, at *11
(M.D. Pa. Sept. 13, 2013).
IV. Conclusion
For the foregoing reasons, B.L.’s motion for summary
judgment will be granted, and the District’s motion for
summary judgment will be denied. B.L.’s motion to exclude Dr. Mussoline’s expert report and testimony will be
denied as moot.
An appropriate order follows.
March 21, 2019
Date

/s/ A. Richard Caputo
A. Richard Caputo
United States District Judge

77a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT FOR
THE MIDDLE DISTRICT OF PENNSYLVANIA
B.L., a minor, by and through
her father, LAWRENCE
LEVY, and her mother,
BETTY LOU LEVY,
Plaintiff,

NO. 3:17-CV-01734
(JUDGE CAPUTO)

v.
MAHANOY AREA SCHOOL
DISTRICT,
Defendant.
ORDER
NOW, this 21st day of March, 2019, IT IS HEREBY ORDERED that:
(1)

The Motion for Summary Judgment filed by Plaintiff B.L. (Doc. 33) is GRANTED.
(A)

Judgement is ENTERED in favor of B.L.
and against Defendant Mahanoy Area
School District.

(B)

The Court DECLARES that Mahanoy
Area School District’s disciplinary action
against B.L. for her out-of-school speech violated B.L.’s rights under the First

78a
Amendment to the United States Constitution.
(C)

The Court AWARDS B.L. nominal damages of $1.

(D)

Mahanoy Area School District SHALL expunge any record of its disciplinary action
against B.L.1

(2)

The Motion for Summary Judgment filed by Mahanoy Area School District (Doc. 37) is DENIED.

(3)

The Motion to Exclude the Expert Report and
Testimony of Lawrence J. Mussoline, PhD, filed by
B.L. (Doc. 35) is DENIED as moot.

(4)

The Preliminary Injunction issued on October 5,
2017 (Doc. 13) is DISSOLVED as of the date of the
entry of this Order.

(5)

B.L. SHALL file any application for reasonable attorneys’ fees and costs pursuant to 42 U.S.C.
§ 1988 or any other provision of law or any motion
for extension of time to file such an application
within fourteen (14) days of the date of entry of
this Order.

(6)

The Clerk of Court is directed to mark this case

As noted in the Memorandum preceding this Order, B.L. concedes
that judgment may be entered in her favor without addressing the
constitutionality of the Cheerleading Rules pursuant to which B.L.
was punished. (Doc. 53 at 16). I take that to mean B.L. only requests
declaratory and injunctive relief related to those Rules (see Doc. 33-1
at ¶¶ 3-4) if the Court necessarily reaches the question of their constitutionality. Because judgment is entered in B.L.’s favor without
reaching that question, the Court will not grant the alternative relief
B.L. seeks.

1

79a
CLOSED.
/s/ A. Richard Caputo
A. Richard Caputo
United States District Judge

